OFFICE OF INSPECTOR GENERAL


Semiannual Report to

CONGRESS
                                                           $26
                                                           Billion




                                                     n t
                                               m   e
                                           l e
                                    e   tt
                                c S
                          r i
                 i s   to
               H




                                              2012
                                Largest Mortgage Lender Settlement
                                          in U.S. History

              April 1, 2012, Through September 30, 2012

         U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT
     Profile of Performance
     Audit profile of performance for the period April 1, 2012, to September 30, 2012

                                 Results                                     This reporting period                  FY 2012
         Recommendations that funds be put to better use                          $827,131,502                  $3,291,053,596
         Recommended questioned costs                                            $1,201,914,633                 $1,334,803,897
         Collections from audits                                                   $33,615,240                   $173,163,871
         Administrative sanctions                                                        3                               6
         Subpoenas                                                                      117                            163

     Investigation profile of performance for the period April 1, 2012, to September 30, 2012

                                 Results                                     This reporting period                  FY 2012
         Recoveries and receivables                                               $538,068,750                  $4,079,787,377
         Arrests   1
                                                                                        280                            614
         Indictments and informations                                                   354                            708
         Convictions, pleas, and pretrial diversions                                    285                            663
         Civil actions 2
                                                                                         32                             94
         Total administrative sanctions                                                 181                            489
            Suspensions                                                                  77                            148
            Debarments                                                                   79                            178
            Limited denial of participation                                               0                              0
            Removal from program participation                                           18                             63
         Systemic implication reports                                                     7                              7
         Personnel actions  3
                                                                                         20                             62
         Search warrants                                                                 47                             79
         Subpoenas                                                                      584                           1,223
     1 2 3 \

     Hotline profile of performance for the period April 1, 2012, to September 30, 2012
                                 Results                                     This reporting period                  FY 2012
         Funds put to better use                                                     $623,886                      $1,480,230
         Recoveries and receivables                                                  $172,288                       $315,693
         Hotline complaints processed related to OIG
                                                                                        387                            637
         mission

     1
      Included in the arrests is our focus on the nationwide Fugitive Felon Initiative. During fiscal year (FY) 2012, we arrested 30
     fugitive felons with 2 occurring this reporting period.
     2
      Civil actions no longer include contact letters.
     3
      Personnel actions include reprimands, suspensions, demotions, or termination of the employees of Federal, State, or local
     governments or of Federal contractors and grantees as the result of OIG activities.




ii
                                        A Message From Inspector
                                        General David A. Montoya
                                        I am honored to submit my second Semiannual Report to Congress,
                                        which highlights key results for the period ending September 30, 2012.
                                        This submission closes out fiscal year 2012, arguably one of the most
                                        successful years this Office of Inspector General (OIG) has ever had.
                                        With much admiration, I want to highlight the exceptional performance
                                        reflected in this report and the tireless dedication of our staff of auditors,
                                        investigators, computer specialists, evaluators, attorneys, and other
                                        support staff.

                                          Our office is charged with eliminating and preventing fraud, waste, and
                                          abuse in U.S. Department of Housing and Urban Development (HUD)
                                          programs and operations, and the audits and investigations conducted
                                          by our office have had a significant impact on safeguarding HUD and
the taxpayer. During this 6-month cycle, we issued 86 audits, which resulted in more than $827 million in funds
put to better use, nearly $1.2 billion in questioned costs, and more than $33 million in collections from audits.
Our investigations led to $538 million in recoveries, 354 indictments or informations, and 285 convictions of
criminals impacting HUD programs.

One of the key audits during the period was our review of the Federal Housing Administration’s (FHA)
Preforeclosure Sales Program. Of 80 claims statistically sampled, 61 did not meet the criteria for participation in
the program. As a result, we estimated that HUD paid $1.6 billion in claims for 11,693 preforeclosure sales. We
recommended that HUD strengthen program controls and obtain reimbursement from those lenders that were
not previously pardoned from repayment in the national mortgage settlement.

An important investigation for your attention involves our emphasis on fraud rescue schemes. Three former
owners of several loan modification companies pled guilty for their part in a scheme to defraud distressed
homeowners seeking to modify FHA and conventional mortgages. More than 200 victims of this scheme have
been identified to date, along with an estimated $1.6 million stolen by the defendants.

Our strategic plan going forward will center on four new initiatives. While we remain committed to our
statutory mission of detecting fraud, waste, and abuse, we will concentrate on identifying and mitigating
problems before they become systemic, rather than limiting ourselves solely to reacting to allegations. Along
with our traditional audit and investigative work, we will implement four initiatives over the next 5 years to
tackle the conditions we currently face. These are

•	      An emphasis on civil fraud cases,
•	      Enhanced evaluations and inspections,
•	      Increased use of data analytics, and
•	      Renewed fraud prevention efforts.

The men and women who comprise HUD OIG are an outstanding group of professionals, who are strong in
their commitment to making a difference in HUD programs and operations and are pledged to ensuring that
government programs are run with honesty and competence.




David A. Montoya
Inspector General




                                                         ﻿                                                               iii
     Acronyms List
     ARRA			        American Recovery and Reinvestment Act of 2009
     CDBG			        Community Development Block Grant
     CDBG-R		       Community Development Block Grant-Recovery
     CFR			         Code of Federal Regulations
     CPD			         Office of Community Planning and Development
     DOJ			         U.S. Department of Justice
     FBI			         Federal Bureau of Investigation
     FFMIA		        Federal Financial Management Improvement Act of 1996
     FHA			         Federal Housing Administration
     FIFO			first-in, first-out
     FY			fiscal year
     GAO			         U.S. Government Accountability Office
     HECM		         home equity conversion mortgage
     HIAMS		        HUD Integrated Acquistion Management System
     HOME		         HOME Investment Partnerships Program
     HPS			         HUD Procurement System
     HUD			         U.S. Department of Housing and Urban Development
     IDIS			        Integrated Disbursement and Information System
     IRS			         Internal Revenue Service
     LMDC			        Lower Manhattan Development Corporation
     M&M			         management and marketing
     NOAH			        New Orleans Affordable Homeownership Program
     NSP			         Neighborhood Stabilization Program
     OCFO			        Office of the Chief Financial Officer
     OIG			         Office of Inspector General
     OMB			         Office of Management and Budget
     PHA			         public housing agency
     PIH			         Office of Public and Indian Housing
     REO			real estate-owned
     SEMAP		        Section Eight Management Assessment Program
     SPS			         Small Purchase System
     U.S.C.			      United States Code
     USDA			        U.S. Department of Agriculture



iv
Reporting Requirements
The specific reporting requirements as prescribed by the Inspector General Act of
1978, as amended by the Inspector General Act of 1988, are listed below:

Source-Requirement                                                                              Pages
Section 4(a)(2)-review of existing and proposed legislation and regulations.                         32

Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to          1-31
the administration of programs and operations of the Department.

Section 5(a)(2)-description of recommendations for corrective action with respect to                 35
significant problems, abuses, and deficiencies.

Section 5(a)(3)-identification of each significant recommendation described in              Appendix 3,
previous Semiannual Report on which corrective action has not been completed.                   table B

Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                     1-31
prosecutions and convictions that have resulted.

Section 5(a)(5)-summary of reports made on instances where information or assistance        No instances
was unreasonably refused or not provided, as required by Section 6(b)(2) of the Act.

Section 5(a)(6)-listing of each audit report completed during the reporting period, and      Appendix 2
for each report, where applicable, the total dollar value of questioned and unsupported
costs and the dollar value of recommendations that funds be put to better use.

Section 5(a)(7)-summary of each particularly significant report.                                   1-31

Section 5(a)(8)-statistical tables showing the total number of audit reports and the        Appendix 3,
total dollar value of questioned and unsupported costs.                                        table C

Section 5(a)(9)-statistical tables showing the total number of audit reports and the        Appendix 3,
dollar value of recommendations that funds be put to better use by management.                 table D

Section 5(a)(10)-summary of each audit report issued before the commencement of             Appendix 3,
the reporting period for which no management decision had been made by the end of               table A
the period.


Section 5(a)(11)-a description and explanation of the reasons for any significant                    36
revised management decisions made during the reporting period.

Section 5(a)(12)-information concerning any significant management decision with                     39
which the Inspector General is in disagreement.

Section 5(a)(13)-the information described under section 05(b) of the Federal                        40
Financial Management Improvement Act of 1996.




                                                                                                           v
     Contents
     Chapter 1 - Single-Family Programs
       Audit������������������������������������������������������������������������������������������������������������������������������������������1
       Investigation������������������������������������������������������������������������������������������������������������������������������4


     Chapter 2 - Public and Indian Housing Programs
       Audit������������������������������������������������������������������������������������������������������������������������������������������8
       Investigation����������������������������������������������������������������������������������������������������������������������������11


     Chapter 3 - Multifamily Housing Programs
       Audit����������������������������������������������������������������������������������������������������������������������������������������13
       Investigation����������������������������������������������������������������������������������������������������������������������������13


     Chapter 4 - Community Planning and Development Programs
       Audit����������������������������������������������������������������������������������������������������������������������������������������15
       Investigation.....................................................................................................................�������18


     Chapter 5 - American Recovery and Reinvestment Act of 2009
       Audit����������������������������������������������������������������������������������������������������������������������������������������20
       Investigation.....................................................................................................................�������24


     Chapter 6 - Disaster Relief Programs
       Audit����������������������������������������������������������������������������������������������������������������������������������������25
       Investigation����������������������������������������������������������������������������������������������������������������������������26


     Chapter 7 - Other Significant Audits and Investigations and the OIG Hotline
       Audit����������������������������������������������������������������������������������������������������������������������������������������27
       Investigation����������������������������������������������������������������������������������������������������������������������������30
       OIG Hotline����������������������������������������������������������������������������������������������������������������������������30


     Chapter 8 - Legislation, Regulation, and Other Directives
       Notices and Policy Issuances��������������������������������������������������������������������������������������������������32




vi
Chapter 9 - Audit Resolution
  Audit Reports Issued Before the Start of the Period With
  No Management Decision as of September 30, 2012�����������������������������������������������������������35
  Significantly Revised Management Decisions�����������������������������������������������������������������������36
  Significant Management Decision With Which OIG Disagrees�����������������������������������������39
  Federal Financial Management Improvement Act of 1996��������������������������������������������������40


Appendix 1 - Peer Review Reporting�����������������������������������������������������������������������������������������42


Appendix 2 - Audit Reports Issued�������������������������������������������������������������������������������������������43


Appendix 3 - Tables��������������������������������������������������������������������������������������������������������������������53


Appendix 4 - 5-Year Recap: HUD OIG’s Impact on the FHA Insurance Program
             2008-2012������������������������������������������������������������������������������������������������������������79


OIG Telephone Directory����������������������������������������������������������������������������������������������������������81




                                                                                                                                             vii
                                           Chapter 1
                                    Single-Family Programs


    Strategic Initiative 1:                             lenders that were not involved in the national
    Contribute to the reduction of fraud                mortgage settlement.  Based on the sample
    in single-family insurance programs                 results, OIG statistically projected that HUD
                                                        paid an estimated $1.06 billion in claims
                                                        for 11,693 preforeclosure sales during the
                                                        audit period that did not meet the criteria
    Audit                                               for participation in the program.  While this
                                                        amount of claims did not comply with HUD
    The Federal Housing Administration (FHA)            requirements, it does not represent a direct loss
    single-family programs provide mortgage             to the FHA insurance fund.  The ultimate final
    insurance to mortgage lenders that, in turn,        cost to the FHA insurance fund would likely be
    provide financing to enable individuals and         less than this amount because some of these
    families to purchase, rehabilitate, or construct    loans could have been processed differently
    homes. Some of the highlights from this             and would have instead gone to foreclosure
    semiannual period are noted below:                  and become conveyance claims.  However, it is
                                                        also reasonable to assume that at least some of
                                                        these loans would have resulted in no claim or
                                          Audit         reduced claims due to alternative loss mitigation
          Key program results                           procedures. 
                                        17 audits

           Questioned costs           $322.2 million    OIG recommended that HUD strengthen
                                                        controls over the Preforeclosure Sale Program
        Funds put to better use       $792.7 million    and require lenders to reimburse the FHA
                                                        insurance fund for improper claims. (Audit
                                                        Report: 2012-KC-0004)
    Review of the FHA
    Preforeclosure Sale Program                         Review of Mortgage Loan Servicing
    The U.S. Department of Housing and Urban            and Foreclosure Abuses – Rollup
    Development, Office of Inspector General
    (HUD OIG), reviewed the FHA Preforeclosure          HUD OIG reviewed the foreclosure practices
    Sale Program to determine whether FHA paid          for five of the largest FHA mortgage servicers
    claims for only preforeclosure sales that met the   (Ally Financial, Incorporated; Bank of America;
    criteria for participation in the program.          CitiMortgage; JPMorgan Chase; and Wells
                                                        Fargo Bank) due to reported allegations made
    Of 80 claims reviewed, 61 did not meet the          in the fall of 2010 that national mortgage
    criteria for participation in the Preforeclosure    servicing lenders were engaged in widespread
    Sale Program.  Of these ineligible claims, 55       questionable foreclosure practices involving the
    were submitted by the 5 lenders involved in the     use of foreclosure “mills” and a practice known as
    national mortgage settlement.  In exchange for      “robosigning.”  On March 12, 2012, OIG issued
    roughly $25 billion, the settlement pardoned        separate memorandums to HUD, which detailed
    these lenders’ misconduct in loan servicing,        its results for each of the five reviews (2012-PH-
    including their processing of preforeclosure        1801, 2012-FW-1802, 2012-KC-1801, 2012-CH-
    sale claims.  The remaining six improper claims     1801, and 2012-AT-1801). 
    totaling nearly $361,000 were submitted by




1                                  Chapter 1 - Single-Family Programs
In February 2012, the U.S. Department of Justice       Mortgagees, Loan Correspondents,
(DOJ) and State attorneys general announced
their proposed joint settlement agreement              and Direct Endorsement Lenders
totaling $25 billion with the five mortgage
servicers for their reported violations of State and   HUD OIG reviewed FHA loans underwritten
Federal foreclosure requirements.  On March 12,        by Shea Mortgage, Inc., in Aliso Viejo, CA, to
2012, DOJ and the State attorneys general filed        determine the extent to which Shea Mortgage
consent judgments with the court.  The consent         failed to prevent the recording of prohibited
judgments provided details of the servicers’           restrictive covenants or potential liens in
financial obligations under the agreement, such        connection with FHA-insured loans closed
as payments to borrowers whose properties              between January 1, 2008, and December 31,
were foreclosed upon and the Federal and State         2011.
governments.  They also included more than $20
billion in consumer relief activities.  The Federal    Shea Mortgage did not follow HUD
settlement payment amount of more than $684            requirements when it underwrote loans that
million would be used for (1) losses incurred to       had executed and recorded agreements between
FHA’s capital reserve account and the Veterans         Shea Homes and the FHA borrower, containing
Housing Benefit Program Fund or as otherwise           prohibited restrictive covenants in connection
directed by the U.S. Department of Veterans            with FHA-insured properties.  As a result, 600
Affairs and the U.S. Department of Agriculture’s       FHA-insured loans (29 claim loans and 571
Rural Housing Service and (2) the resolution of        active loans) had a corresponding prohibited
qui tam actions.  Of the $684 million, as of July      restrictive covenant recorded with the applicable
15, 2012, more than $315.2 million had been            county recording office, and Shea Mortgage
deposited into FHA’s account.                          placed the FHA insurance fund at unnecessary
                                                       risk for potential losses.
OIG recommended that HUD (1) determine
the changes needed to FHA’s servicing and              OIG recommended that HUD require Shea
foreclosure policies based on the consent              Mortgage to (1) reimburse the FHA insurance
judgments and ensure that the servicers                fund for nearly $1.5 million in actual losses
incorporate the necessary changes into their           resulting from the amount of claims and
procedures for servicing FHA-insured loans; (2)        associated expenses paid on 11 loans that
ensure that the servicers establish or implement       contained prohibited restrictive covenants; (2)
adequate procedures and controls to address            support the eligibility of nearly $2.6 million
the control deficiencies cited in the five issued      in claims paid or execute an indemnification
memorandums, including but not limited to the          agreement requiring any unsupported amounts
withholding of claims for insurance benefits and       to be repaid for claims paid on 19 loans, for
the retention of appropriate legal documentation       which HUD has paid claims but not sold the
supporting the appropriateness of the foreclosure      properties; (3) remove prohibited restrictive
for all FHA-insured properties for the life of the     language or execute an indemnification
loans; and (3) pursue appropriate administrative       agreement that prohibits it from submitting
sanctions against attorneys who may have               claims on 27 active loans with prohibited
violated professional obligations related to the       restrictive covenants in the amount of more
foreclosure of FHA-insured properties. (Audit          than $7.7 million, thereby putting more than
Memorandum: 2012-CH-1803)                              $5 million to better use; (4) nullify all active
                                                       restrictive covenants on FHA loans or execute
                                                       an indemnification agreement that prohibits it
                                                       from submitting claims on those loans; and (5)
                                                       follow 24 CFR (Code of Federal Regulations)
                                                       203.41 requirements and ensure that policies




                               Chapter 1 - Single-Family Programs                                          2
    and procedures reflect FHA requirements.              $199,000 in claims paid on 1 loan; (2) indemnify
    In addition, OIG recommended that HUD                 HUD for 11 loans with material underwriting
    determine legal sufficiency and if legally            deficiencies; and (3) implement adequate
    sufficient, pursue civil remedies, civil money        policies, procedures, and controls to address the
    penalties, or other administrative action against     issues cited. (Audit Report: 2012-CH-1015)
    Shea Mortgage, its principals, or both for
    incorrectly certifying to the integrity of the data   ***
    or that due diligence was exercised during the
    origination of FHA-insured mortgages. (Audit          HUD OIG audited loans originated by Bankers
    Memorandum: 2012-LA-1801)                             Mortgage Group in Woodland Hills, CA, to
                                                          determine whether the lender originated FHA-
    ***                                                   insured loans using sufficient, reliable, and valid
                                                          documentation. 
    HUD OIG audited Allen Mortgage, Limited
    Liability Company, an FHA nonsupervised               Bankers Mortgage Group did not originate
    lender in Centennial Park, AZ, to determine           loans using sufficient, reliable, and valid
    whether (1) Allen Mortgage complied with              documentation in compliance with HUD
    HUD’s regulations, procedures, and instructions       requirements.  Specifically, 9 of 10 loans reviewed
    in underwriting FHA-insured loans and (2)             contained significant deficiencies that affected
    its quality control plan, as implemented, met         the integrity of data entered into the automated
    HUD’s requirements.                                   underwriting system.  These loans were
                                                          originated with false or questionable income
    Allen Mortgage did not comply with HUD’s              and asset documentation, including income
    regulations, procedures, and instructions in          that could not be verified, gifts to borrowers
    underwriting FHA-insured loans. Specifically,         that lacked evidence of source of funds, and
    of the 73 streamline refinanced loans reviewed,       improperly sourced earnest money deposits.  
    23 contained material underwriting deficiencies.
    Allen Mortgage also (1) allowed borrowers to          OIG recommended that Bankers Mortgage
    skip mortgage payments due on their previous          Group or another responsible lender (1)
    loans and close their loans without paying            indemnify HUD against potential losses of
    settlement costs; (2) did not always ensure           more than $1.5 million for eight loans and
    that FHA case binders sent to HUD contained           (2) reimburse the FHA insurance fund nearly
    complete and accurate information; (3) provided       $59,000 for the actual loss on one loan.  OIG
    mortgage services to borrowers, such as paying        recommended that HUD pursue remedies under
    their mortgage payments, to prevent them from         the Program Fraud Civil Remedies Act (31
    defaulting on their mortgages within the first six    U.S.C (United States Code) 3801-3812), civil
    payments; (4) sought reimbursement from the           money penalties (24 CFR 30.35), or both against
    borrowers for the advanced payment; and (5) did       Bankers Mortgage Group, its principals, or both
    not fully implement its quality control program       for certifying to the truthfulness and correctness
    in accordance with HUD’s requirements. As             of false or questionable loan information.  OIG
    a result, the risk to FHA’s insurance fund was        also recommended that HUD review all of the
    increased by more than $2 million, and HUD            remaining loans that were originated by Bankers
    lacked assurance that Allen Mortgage acted in         Mortgage Group and take action as appropriate.
    the best interests of FHA borrowers.                  (Audit Report: 2012-LA-1011)

    OIG recommended that HUD require Allen
    Mortgage to (1) reimburse the FHA insurance
    fund more than $811,000 for losses incurred on
    8 loans and for any future losses for more than




3                                   Chapter 1 - Single-Family Programs
Review of the Real Estate-                          HUD OIG audited HUD’s REO M&M III
                                                    program at Innotion Enterprises, Inc., in Las
Owned Management and
                                                    Vegas, NV, to determine whether Innotion
Marketing III Program                               performed property preservation and protection
                                                    services according to contract requirements. 
HUD OIG audited HUD’s oversight of its
real estate-owned (REO) Management and              Innotion did not always perform property
Marketing (M&M) III program to determine            protection and preservation services according
whether HUD’s policies and procedures provided      to contract requirements.  Specifically, 38 of 96
for efficient and effective oversight of asset      properties reviewed materially failed because
managers and field service managers under the       homes were not secured or properly maintained. 
program.                                            As a result, HUD did not have assurance that
                                                    Innotion maintained REO homes at the high
HUD did not have adequate procedures in place       standard of care required in the performance
to ensure consistent and adequate enforcement       work statement.  HUD paid Innotion more than
of asset and field service manager contracts.       $11,000 for monthly services for 38 homes that
Specifically, (1) list prices were not always       did not reflect a high standard of care. 
reduced according to the marketing plans, (2)
bids were approved that did not meet HUD’s          OIG recommended that HUD require Innotion
flexible threshold, (3) bids were rejected that     to develop and implement adequate procedures
met the marketing plan thresholds, (4) bids         and controls, including improving its quality
that met applicable thresholds were not always      control inspections, to ensure that all units meet
counteroffered or forwarded to the government       HUD’s REO contract requirements to prevent
technical representative for approval, and (5)      more than $1 million in program funds from
properties were not assigned to field service       being spent over the next year on units that are
managers based on performance even when             in material noncompliance with HUD standards.
HUD identified performance issues.  In addition,    (Audit Report: 2012-LA-1010)
HUD did not always pay field service managers
in accordance with their contracts, resulting
in an estimated net underpayment of nearly
$554,000 to field service managers.                 Investigation
OIG recommended that HUD (1) develop and            The HUD OIG Office of Investigation conducts
implement policies and procedures for oversight     criminal, civil, and administrative investigations
of the M&M III program, to ensure that field        involving allegations of fraud against HUD’s
service managers are paid only for routine          programs, including theft, embezzlement, and
inspections that are conducted, and procedures      false statements by HUD project management
for the its tracking system, to ensure that bids    and housing development employees,
meeting applicable thresholds based on the listed   contractors, and others and false statements and
and appraised values are accepted; (2) review       theft by housing program participants, including
the tracking system and its related controls; (3)   tenants. The investigations are generated in
finalize and implement the field service manager    many ways to include leads provided by HUD
scorecard; (4) reimburse or request repayment for   program staff and may be conducted jointly
the field service managers that were underpaid      with our Office of Audit and Federal, State,
or overpaid; and (5) ensure that HUD receives       and local law enforcement agencies. The
repayment for routine inspections that were not     Office of Investigation works closely with law
conducted by field service managers. (Audit         enforcement partners on task forces as well.
Report: 2012-LA-0003)                               This interagency cooperation allows for a free
                                                    exchange of information among Federal agencies




                              Chapter 1 - Single-Family Programs                                         4
    – particularly with respect to government             conspiracy to commit wire fraud. He conspired
    intellectual property. Consequently, HUD,             with others to create and submit false and
    FHA, and the Government National Mortgage             fraudulent FHA mortgage loan applications and
    Association are now moving to protect their           accompanying documents to a lender on behalf
    names, logos, and marks from those defrauding         of unqualified borrowers. The defendant created
    consumers under the guise of government               false pay stubs, Federal tax forms, verification
    affiliation or endorsement.                           of employment forms, explanation letters,
                                                          and other documents to ensure that otherwise
             Program results             Investigations   unqualified borrowers could obtain FHA-insured
                                                          loans. He enticed borrowers to obtain an FHA
       Administrative-civil actions           98          mortgage by paying them an incentive of up to
           Convictions-pleas-                             $20,000 per loan. The loss to FHA is estimated
                                              78
           pretrial diversions                            at $6.5 million. (Miami, FL)
           Financial recoveries          $528,541,175
                                                          Former Loan Processor Sentenced
    Three Plead Guilty in                                 A former loan processor for an FHA-approved
    Scheme Using HUD Logo                                 lender was sentenced to 49 days in jail and
                                                          3 years of supervised probation with the
    Three former owners of several loan modification      additional condition of not possessing the
    companies pled guilty to mail fraud and aiding        personally identifiable information of others.
    and abetting for their part in a scheme to            The defendant forged rental agreements
    defraud distressed homeowners seeking to              claiming that borrowers were receiving rental
    modify FHA and conventional mortgages. The            income and submitted them in FHA loan files
    defendants told the victims that their companies      without the borrowers’ knowledge. Five FHA
    were endorsed by a department of HUD.                 loans totaling $1.1 million were identified as
    Additionally, the defendants displayed the            containing forged rental agreements, and it was
    HUD logo on multiple documents provided to            determined that the loans would not have been
    victims. The defendants convinced homeowners          approved without the added income provided
    to send their mortgage payments directly to the       by the fraudulent rental agreements. To date,
    companies instead of their respective lenders.        two of the FHA loans have gone to claim with
    The defendants kept the mortgage payments for         a total loss to HUD of $307,198. In several
    personal use, causing the victims’ homes to go        instances, the buyers walked away from existing
    into foreclosure. More than 200 victims have          conventional loans once the FHA-insured loan
    been identified in this scheme to date, with an       was fraudulently obtained. This investigation
    estimated $1.6 million stolen by the defendants.      was conducted with the HUD civil fraud unit.
    (San Diego, CA)                                       (Sacramento, CA)

    Former Loan Officer                                   Two Former Mortgage Company
    Sentenced in Mortgage Fraud                           Principals Plead Guilty in a
    Case After Guilty Plea                                Mortgage Fraud Scheme That
                                                          Included Junior Mortgages
    A former mortgage company loan officer was
    sentenced to 54 months incarceration and 3            Two former principals of a HUD-approved
    years supervised release. He was further ordered      mortgage company pled guilty to one count
    to pay more than $9.2 million in restitution to       of racketeering following their original
    FHA. The defendant previously pled guilty to          indictment in June 2011. The defendants




5                                     Chapter 1 - Single-Family Programs
were involved in a complex scheme to defraud       income and assets. She further defrauded FHA
FHA through a series of false statements on        and the bank by submitting false documents and
at least 65 FHA loans totaling in excess of $10    information to secure a loan modification of the
million. The fraudulent acts included the use      original FHA-insured mortgage. This case was
of straw purchasers, phony employers, bogus        worked jointly with the Department of State
bank statements and pay stubs, forged college      OIG. (Greenbelt, MD)
transcripts, counterfeit court documents,
and phony downpayment gifts. Additionally,
the defendants profited from the scheme by
                                                   Complex Mortgage Fraud
recording junior mortgages that were payable       Scheme Results in a Number
to business entities or associates from the loan   of Arrests and Indictments
proceeds. This case was worked jointly with the
State of Minnesota and the U.S. Department of
                                                   Twenty Federal indictments were filed against
Commerce OIG. (Minneapolis, MN)
                                                   real estate agents and property investors, a loan
                                                   officer, straw buyers, and several coconspirators
Former Owner Charged Civilly                       who were involved in a scheme with several
                                                   mortgage companies. The indictments resulted
With Mortgage Fraud                                in 19 arrests. Two of the defendants acted as
                                                   real property investors, home improvement
The former owner of a realty group was             contractors, or real estate agents, while acting as
sentenced to 63 months incarceration and 3         the recruiters for straw buyers. The defendants
years supervised release and ordered to pay        identified properties in the process of foreclosure
restitution of more than $1 million to victim      or properties of owners who were deceased.
financial institutions. The defendant previously   The defendants offered to buy the properties
pled guilty to wire fraud affecting a financial    or find buyers for them. Once owners agreed,
institution and false statements on a loan         the defendants produced either false mortgage
application. He placed fraudulent income and       notes or home improvement contracts so
employment data into FHA and conventional          they could justify collecting part of the sales
loan files to get them approved. He was assisted   proceeds directly from the lenders or from
with this scheme by several employees of his       the sellers. Straw buyers were recruited, who
company. This case was prosecuted for violations   applied and obtained approval for FHA-insured
of the Financial Institutions Reform, Recovery,    loans for the purchase of the properties. The
and Enforcement Act, a Federal civil statute.      defendants helped the straw buyers obtain
This case was worked jointly with the HUD civil    false income verification documents, such as
fraud unit. (Los Angeles, CA)                      pay stubs, Federal tax forms, tax returns, and
                                                   verifications of employment. The former loan
Former State Department                            officer assisted with the approval of the loans.
                                                   This was a joint investigation with the Internal
Employee Sentenced in                              Revenue Service (IRS)-Criminal Investigation
Mortgage Fraud Scheme                              Division, the Federal Bureau of Investigation
                                                   (FBI), Immigration and Customs Enforcement,
A former U.S. Department of State employee         the United States Secret Service, and the Puerto
and FHA-insured borrower was sentenced to 8        Rico Office of the Commissioner of Financial
months home detention and 3 years probation        Institutions. (San Juan, PR).
and ordered to pay restitution to FHA. The
defendant previously plead guilty to wire fraud
in connection with a scheme to defraud a large
bank by securing an FHA-insured mortgage loan
using false documents and falsely inflating her



                              Chapter 1 - Single-Family Programs                                         6
    Bank Officials Plead Guilty in $30
    Million Loan Fraud
    A former senior vice president and loan officer,
    a former senior vice president of residential
    lending, a former underwriter, and a former
    loan processor at a large bank pled guilty to
    conspiracy to submit false statements in loan
    applications and submitting false statements
    in loan applications to FHA. The defendants
    were involved in originating and approving
    FHA-insured loans and conventional loans that
    contained fraudulent information. The case
    involved approximately 1,900 FHA loans with a
    potential loss to FHA of $30 million. This case
    was worked jointly with the FBI, IRS, and Postal
    Inspection Service. (Tacoma, WA)

    Financial Group Owner Sentenced
    in Distressed Homeowner Scheme
    The owner of a financial group was sentenced to
    27 months confinement and 5 years supervised
    release and ordered to pay $544,602 in restitution
    ($242,760 payable to HUD) for his earlier guilty
    plea to submitting false statements on a credit
    application. The defendant found distressed
    homeowners and convinced them to deed their
    property to a trust while leaving the mortgage
    in the name of the original homeowner. Rent
    was collected on the homes, but the mortgage
    payments were not made, causing the mortgages
    to go into foreclosure. On at least one occasion,
    fraudulent pay stubs and other documents were
    presented to the bank in an attempt to modify
    the FHA loan and prevent foreclosure. This case
    was worked jointly with the U.S. Department of
    Veterans Affairs OIG. (Waco, TX)




7                                  Chapter 1 - Single-Family Programs
                                               Chapter 2
                           Public and Indian Housing Programs


The U.S. Department of Housing and Urban                  Authority ensured that its Housing Choice
Development (HUD) provides grants and                     Voucher program units met HUD’s housing
subsidies to 4,100 public housing agencies                quality standards. 
(PHA) nationwide. Many PHAs administer
both public housing and Section 8 programs.               The Authority did not conduct adequate
HUD also provides assistance directly to PHAs’            inspections to ensure that its program units
resident organizations to encourage increased             met housing quality standards as required.  Of
resident management entities and resident skills          70 program units inspected, 57 did not meet
programs. Programs administered by PHAs are               HUD’s housing quality standards, and 26 were
designed to enable low-income families, the               in material noncompliance with HUD standards. 
elderly, and persons with disabilities to obtain          The Authority disbursed nearly $15,000 in
and reside in housing that is safe, decent,               housing assistance payments and received more
sanitary, and in good repair. Some of the                 than $500 in administrative fees for these 26
highlights from this semiannual period are noted          units. 
below.
                                                          OIG recommended that HUD require the
Strategic Initiative 2:                                   Authority to (1) reimburse its program more
Contribute to the reduction of erroneous                  than $15,000 from non-Federal funds for the
payments in rental assistance                             26 units that materially failed to meet HUD’s
                                                          housing quality standards and (2) use the results
                                                          of the audit to train all of its inspectors to
                                                          ensure that program units meet housing quality
Audit                                                     standards, thereby ensuring that $5.2 million
                                                          in program funds is expended for units that are
                                                          decent, safe, and sanitary. (Audit Report: 2012-
                                            Audit
         Program results                                  PH-1012)
                                         26 audits4
                                                          ***
        Questioned costs                $25 million

    Funds put to better use             $5.7 million      HUD OIG audited the Section 8 Housing
                                                          Choice Voucher program of the Saginaw
4
                                                          Housing Commission in Saginaw, MI, to
Section 8 Housing Choice                                  determine whether the Commission operated its
                                                          program in accordance with HUD’s and its own
Voucher Program                                           requirements. 
HUD’s Office of Inspector General (OIG)                   The Commission did not always administer its
audited the Housing Choice Voucher program                program in accordance with HUD’s and its own
of the Allegheny County Housing Authority                 requirements.  It failed to ensure that program
in Pittsburgh, PA, to determine whether the               participants’ Family Self-Sufficiency program
                                                          escrow account balances were calculated
4
 The total public and Indian housing audits, questioned
                                                          appropriately.  Specifically, it (1) underfunded
costs, and funds put to better use amounts include any
American Recovery and Reinvestment Act of 2009 (11        participants’ graduation and port-out payments,
audits) type audits conducted in the public and Indian    (2) overpaid participants’ graduation and interim
housing area. The writeups for these audits are shown     payments, (3) underfunded participants’ escrow
separately in chapter 5 of this semiannual report.




                           Chapter 2 - Public and Indian Housing Programs                                     8
    account balances, (4) failed to recapture funds       Authority officials continued to make housing
    in its system due to incorrect escrow account         assistance payments for these inadequate units. 
    balances, and (5) failed to maintain required         As a result, some tenants lived in units that did
    documentation in its participants’ files.  Further,   not meet HUD’s standards for decent, safe, and
    the Commission failed to (1) appropriately use        sanitary housing, and Authority officials made
    HUD’s Enterprise Income Verification system           housing assistance payments for units that did
    income discrepancy reports and (2) recover or         not meet housing quality standards. 
    reimburse its Section 8 Housing Choice Voucher
    program housing assistance and utility allowance      In addition, although Authority officials
    payments for households with unreported or            generally charged expenses to HUD programs
    underreported income.  As a result, HUD and           that were eligible, reasonable, and supported,
    the Commission lacked assurance that more             they awarded a contract to an information
    than $1 million in program funds was used             technology consultant without following HUD’s
    appropriately.                                        or their own procurement regulations or policies
                                                          for noncompetitive proposals.  From January 1,
    OIG recommended that HUD require the                  2010, to December 31, 2011, the Authority paid
    Commission to (1) reimburse its Family Self-          the consultant more than $848,000, of which
    Sufficiency program nearly $22,000 for escrow         nearly $112,000 was charged to the Homeless
    overpayments, (2) reimburse its participants          Management Information Systems program.
    nearly $12,000 for the underpayment of escrow
    funds, (3) provide support or reimburse HUD           OIG recommended that HUD require Authority
    more than $812,000 from non-Federal funds, (4)        officials to (1) repay the Housing Choice
    ensure that nearly $178,000 in program funds          Voucher program nearly $195,000 from non-
    was used appropriately, and (5) implement             Federal funds and (2) conduct an independent
    adequate procedures and controls to address the       cost analysis of the funds charged to the
    findings cited. (Audit Report: 2012-CH-1012)          Homeless Management Information Systems
                                                          program to determine whether costs were
    ***                                                   eligible, reasonable, and supported. (Audit
                                                          Report: 2012-BO-1005)
    HUD OIG audited the Housing Choice
    Voucher program of the Maine State Housing
    Authority in Augusta, ME, pertaining to its           Public Housing Program Activities
    housing quality standards inspections and
    other expenditures and procurements using             HUD OIG audited the financial and
    HUD funds, based on a congressional request.          procurement operations of the Housing
    The objectives of the audit were to determine         Authority of the City of Port Arthur, TX, to
    whether (1) the Authority’s Housing Choice            determine whether the Authority had sufficient
    Voucher program units selected for review met         financial and procurement controls to ensure
    housing quality standards and (2) the use of          that it used HUD funds in accordance with
    HUD funds for expenditures and procurements           laws, regulations, and policies, including
    complied with HUD rules and regulations.              whether the internal control environment was
                                                          designed to provide reasonable assurance about
    Of 61 units inspected, 53 did not meet HUD’s          the achievement of the Authority’s mission,
    housing quality standards.  Authority officials       goals, and objectives.  Also, OIG reviewed the
    did not have adequate oversight of contracted         Authority’s capital funds to determine whether
    program agents and had an ineffective quality         the Authority complied with its consolidated
    control system for their own inspectors.  There       annual contributions contract.
    were units that should have failed inspection
    due to deficiencies but were instead passed, and      The Authority failed to establish a control



9                          Chapter 2 - Public and Indian Housing Programs
environment designed to provide reasonable            The Authority generally had acceptable
assurance about the achievement of its mission,       management and financial practices to
goals, and objectives.  It (1) failed to enact        efficiently and effectively administer the use
policies and procedures to ensure the integrity       of HUD Section 8 and low-income public
of financial operations and compliance with           housing program funds in compliance with
procurement requirements, (2) abused its charge       its annual contributions contracts and HUD
card accounts, and (3) paid its management and        requirements. However, Authority officials did
board ineligible and unsupported compensation.        not seek HUD approval to (1) establish a trust
Further, the Authority’s resident commissioner        for their other postemployment benefits, (2)
was not a resident of the Authority so he was not     transfer $2.5 million in reserves to fund the
eligible to serve on the board of commissioners       trust, and (3) restrict the use of these funds to
according to HUD and State rules.  The                the trust exclusive of any other housing-related
Authority also (1) improperly administered its        purpose. In addition, Authority officials did
Public Housing Capital Fund program and drew          not (1) properly delegate procurement duties,
down more than $469,000 in unused funds that          (2) monitor or prevent interfund borrowing,
it had not expended and (2) imposed a scope           (3) have adequate procedures for tracking and
limitation on the audit, which limited OIG’s          reviewing the Authority’s force account labor
ability to completely assess the Authority’s          projects, and (4) update the Authority’s travel
operations. As a result, the Authority incurred       policy. As a result, the Authority did not (1)
questioned costs of more than $5.9 million and        assign procurement duties in writing, (2) have
violated its annual contributions contract, and       sufficient awareness of interfund imbalances, (3)
its lack of controls put it at substantial risk for   have a sufficient system to determine whether
fraud, errors, and financial misstatements.           the use of force account labor was reasonable, or
                                                      (4) have a travel policy that was adequate.
OIG recommended that HUD (1) determine
whether the Authority was in substantial default      OIG recommended that HUD require
of its annual contributions contract and take         Authority officials to provide proper supporting
appropriate administrative actions against            documentation to show how the Federal funds
its executive director and commissioners; (2)         used to fund a trust benefited each Federal
require the Authority to adopt and implement          program or repay the funds to the Federal
policies and procedures to control its financial      program. Further, HUD should obtain a legal
and procurement operations, repay more than           opinion identifying whether this trust constitutes
$462,000 in ineligible costs, and support or repay    an investment and was properly created and
almost $5 million in unsupported costs to HUD;        whether Federal funds may be used to pay for
and (3) recapture the unexpended capital funds.       other postemployment benefits. In addition,
(Audit Report: 2012-FW-1008)                          Authority officials should strengthen their
                                                      management controls by updating their (1)
***                                                   procurement policy to delegate procurement
                                                      authority to employees, (2) procedures to
HUD OIG audited the Lawrence Housing                  prevent interfund accounts, and (3) methods of
Authority in Lawrence, MA, regarding its              tracking force account labor. Also, the updated
administration of HUD programs, to determine          travel policy should be submitted to HUD and
whether the Authority had acceptable                  implemented. (Audit Report: 2012-BO-1004)
management and financial practices to
efficiently and effectively administer the use        ***
of Section 8 and public housing program funds
in compliance with its annual contributions           HUD OIG reviewed HUD’s receivership of
contracts and HUD requirements.                       the East St. Louis Housing Authority in East
                                                      St. Louis, IL, to determine whether HUD



                       Chapter 2 - Public and Indian Housing Programs                                      10
     effectively oversaw and managed the recovery          was ordered to be paid to the Boston Housing
     and turnaround of the Authority during the            Authority. The defendant was previously
     3-year period ending in September 2011.               convicted of bank fraud, wire fraud, and theft
                                                           of public money.  From May 2003 through
     HUD did not effectively oversee and manage            January 2009, the defendant was involved in
     the recovery and turnaround of the Authority.         a mortgage fraud scheme that involved six
     Specifically, it did not have an adequate structure   properties, including her own residence. Two
     for its staff and did not develop a receivership      of the properties were obtained with FHA-
     plan specific to the Authority.  As a result, the     insured mortgage loans.  The defendant was
     Authority continued to be under receivership          involved in recruiting straw buyers, providing
     after 26 years and continued to experience            false information to lenders to secure mortgages
     significant management and operational                on properties, collecting proceeds from property
     deficiencies.                                         flips, and collecting rents that included HUD
                                                           Section 8 payments from tenants who resided in
     OIG recommended that HUD (1) develop and              the fraudulently obtained properties.  To execute
     implement a receivership plan for the Authority       another part of the scheme, the defendant
     that includes sufficient assessments, decision        created false identification documents, which
     points, measurable goals, and accountability          she provided to the Boston Housing Authority
     mechanisms; (2) improve its structure for             to pose as a landlord and then collected HUD
     managing receiverships; (3) permanently fill the      Section 8 payments for her own residence under
     director position in its Office of Receivership       this false identity.  This scheme caused HUD
     Oversight; and (4) develop adequate                   to lose approximately $650,000. This case
     accountability mechanisms for HUD staff               was worked jointly with the Federal Bureau of
     members whose primary responsibilities involve        Investigation (FBI), the U.S. Postal Service, and
     receiverships. (Audit Report: 2012-KC-0003)           the Boston Police Department. (Boston, MA)


     Investigation                                         Two Brothers Sentenced
                                                           for Scheme To Defraud
              Program results           Investigations     Housing Authority
        Administrative-civil actions          75
                                                           Two brothers of the former director of the
             Convictions-pleas-                            Housing Authority of the City of Los Angeles
                                             157
             pretrial diversions
                                                           were sentenced to 21 months incarceration and
            Financial recoveries          $5,663,485       ordered to pay $526,727 jointly to the Authority
                                                           as a result of their guilty pleas to conspiracy
                                                           to steal government money. One brother was
                                                           employed as the director of technical services
     Former City Department of                             for an organization that received HUD funds
     Neighborhood Development                              for public housing construction projects fixing
     Official Convicted of Mortgage                        units occupied by disabled residents. From
                                                           August 2003 through June 2007, this defendant
     and Section 8 Fraud                                   steered contracts to shell companies operated by
                                                           his brother. As a result, approximately $526,727
     A former program manager of a large city’s            in HUD funds was diverted and used for personal
     Department of Neighborhood Development                gain. The brothers double-billed the Authority for
     was sentenced to 41 months imprisonment               construction work that was actually performed by
     and 3 years supervised release and ordered to         an in-house construction company. The former
     pay restitution of $535,676, of which $67,037         director pled guilty in August 2012 for his role in




11                           Chapter 2 - Public and Indian Housing Programs
the scheme and is scheduled to be sentenced in
October 2012. This case was worked jointly with
the FBI. (Los Angeles, CA)

Former Executive Director
Sentenced for Stealing
Housing Authority Funds
The former executive director of the Jacksonville
Housing Authority was sentenced to 5 years
probation and 6 months home confinement and
ordered to pay $37,475 in restitution to HUD
for her earlier guilty plea to theft of government
funds. From September 2007 to April 2008,
the defendant devised and executed a scheme
to steal $37,475 from Authority program funds
by using the Authority’s credit cards, fuel,
computer, and rental cars for her own personal
use. She also increased her salary without
authorization. (Jacksonville, TX)

Former Section 8 Tenant
and Husband Sentenced for
Stealing More Than $400,000
A former King County Housing Authority
Housing Choice Voucher program recipient
and her husband-landlord were sentenced for
providing false statements to the Authority,
the Social Security Administration, and the
Washington State Department of Social and
Health Services in order to receive benefits.
The defendant was sentenced to 18 months
confinement and 3 years supervised release and
ordered to pay $261,643 in restitution. The
husband-landlord was sentenced to 18 months
confinement and 3 years supervised release and
ordered to pay $160,359 in restitution and a
criminal monetary penalty of $30,000. (Seattle,
WA)




                       Chapter 2 - Public and Indian Housing Programs   12
                                            Chapter 3
                               Multifamily Housing Programs


     In addition to multifamily housing developments    and underfunded the project’s replacement
     with U.S. Department of Housing and Urban          reserve account by more than $36,000.  It took
     Development (HUD)-held or HUD-insured              these actions without HUD approval at a time
     mortgages, the Department owns multifamily         when the property had no surplus cash and
     projects acquired through defaulted mortgages,     the mortgage was delinquent.  As a result, the
     subsidizes rents for low-income households,        project had fewer funds to operate, pay for future
     finances the construction or rehabilitation of     repairs, and keep the mortgage out of default,
     rental housing, and provides support services      thus placing HUD at risk for the $54 million
     for the elderly and handicapped. Some of the       mortgage.
     highlights from this semiannual period are
     shown below.                                       On July 20, 2012, a new investor provided funds
                                                        to bring the mortgage and required escrows
     Strategic Initiative 2:                            current as well as fund the unauthorized
     Contribute to the reduction of erroneous           distributions cited.  Accordingly, all issues were
     payments in rental assistance                      resolved, and OIG’s recommendations were
                                                        closed. (Audit Report: 2012-AT-1014)


     Audit
                                                        Investigation
                                           Audit
            Program results
                                                                  Program results           Investigations
                                          3 audits
                                                            Administrative-civil actions          18
            Questioned costs            $1.5 million
                                                                Convictions-pleas-
         Funds put to better use          $275,000                                                27
                                                                pretrial diversions
                                                               Financial recoveries           $2,748,668

     Review of Section
     220-Insured Property                               Former HUD Employee Pleads
                                                        Guilty to Theft Charges
     The HUD Office of Inspector General (OIG)
     audited the West Village Expansion Project in      A former HUD multifamily housing employee
     Durham, NC, a HUD Section 220-insured              pled nolo contendere to charges of theft of
     property, to evaluate the merits of a citizen’s    personal property and was sentenced to 36 months
     complaint and determine whether the owner          probation and 15 days in the county jail. The
     administered the project in accordance with its    defendant altered his personal identity verification
     regulatory agreement with HUD.                     credential card and payroll statements and forged
                                                        Federal tax forms to reflect the photographs
     The owner violated its regulatory agreement        and names of other individuals, including
     when it repaid more than $502,000 for previous     fictitious government employees, to facilitate a
     advances from its managing member’s principals,    scheme to illicitly purchase high-end electronic
     paid $225,000 for unnecessary legal expenses,      merchandise from an Internet electronic vendor
     did not pay its mortgage in a timely manner,       without making proper payment for the items.




13                                 Chapter 3 - Multifamily Housing Programs
The employee used his official HUD-assigned            falsified Standard Forms 50 on job applications
computer, while in the work place, to facilitate       while applying for employment positions within
his scheme. Upon receiving the items, he posted        HUD. (Denver, CO)
them for sale on the Craigslist Internet Web site,
using his HUD computer, and conducted email
communication to negotiate the sale of the illicitly
acquired items using his official HUD government
email account. (Los Angeles, CA)



Former HUD Multifamily Housing
Director Pleads Guilty in Scheme
With Multifamily Owners
A former HUD multifamily housing director
pled guilty to conspiracy in September 2012.
From June 2007 to December 2008, the
defendant accepted approximately $38,000 from
coconspirators to facilitate and approve an FHA-
insured multifamily housing loan in the amount
of $1.5 million. The defendant underwrote and
processed the loan in-house at HUD after a
private lender could not recommend approval of
the loan; directed staff to sign certain documents
necessary for the loan to proceed to him for
approval; approved a waiver allowing the use of
letters of credit in lieu of a cash downpayment,
which the coconspirators did not have; and
waived certain inspections of the property. The
multifamily project owners were suspended
by HUD’s Departmental Enforcement Center
following an indictment on charges of bribery,
false statements, and mail fraud. Additionally,
the project owners submitted false certifications
to obtain housing assistance payments for the
property they owned. (St. Louis, MO)



Former HUD Employee
Pleads Guilty to Submitting
False Documents
A former HUD employee was removed from his
position as project manager in a multifamily
housing program office after pleading guilty to
submitting false documents to HUD and was
sentenced to 1 year probation. The defendant



                           Chapter 3 - Multifamily Housing Programs                                      14
                                                   Chapter 4
                Community Planning and Development Programs


     The Office of Community Planning and                          Community Development
     Development (CPD) seeks to develop viable
     communities by promoting integrated                           Block Grant Programs
     approaches that provide decent housing, suitable
     living environments, and expanded economic                    HUD OIG audited the City of Elizabeth, NJ’s
     opportunities for low- and moderate-income                    administration of its CDBG program and found
     persons. The primary means toward this end is                 that City officials did not always administer
     the development of partnerships among all levels              the City’s CDBG program in accordance with
     of government and the private sector. Some of                 Federal regulations and program requirements. 
     the highlights from this semiannual period are                Specifically, CDBG funds were expended for
     shown below.                                                  ineligible and unsupported costs, program
                                                                   income was not properly recognized and used,
     Strategic Initiative 3:                                       liens were not imposed on assisted properties,
                                                                   and subrecipient monitoring and compliance
     Contribute to the strengthening
                                                                   with other program requirements were not
     of communities                                                adequate. Consequently, (1) nearly $400,000
                                                                   and nearly $194,000 were expended on ineligible
                                                                   and unsupported costs, respectively, (2) program
     Audit                                                         income of more than $870,000 was not reported
                                                                   and made available for eligible CDBG activities,
                                                                   (3) HUD’s interest in two assisted properties
                                                  Audit            totaling more than $4.2 million was not
              Program results                                      protected, and (4) officials did not adequately
                                               22 audits5
                                                                   monitor subrecipients and comply with program
             Questioned costs                $45.5 million         administrative requirements.

          Funds put to better use            $11.3 million         OIG recommended that City officials (1)
     5                                                             reimburse the City’s CDBG line of credit
     The U.S. Department of Housing and Urban                      from non-Federal funds for the ineligible
     Development, Office of Inspector General                      expenses; (2) provide documentation to support
     (HUD OIG), audited the Community                              the unsupported expenditures and if such
     Development Block Grant (CDBG) program,                       documentation cannot be provided, reimburse
     the HOME Investment Partnerships Program                      the City’s CDBG line of credit from non-
     (HOME), and the Neighborhood Stabilization                    Federal funds; (3) reimburse the CDBG line of
     Program 1 (NSP1). While OIG’s objectives                      credit for unreported program income of more
     varied by auditee, the majority of the reviews                than $475,000; (4) provide documentation to
     were to determine whether the grant funds were                enable HUD to determine whether the City was
     administered for eligible activities and that the             entitled to program income of nearly $264,000;
     auditee met program objectives.                               (5) impose liens or other appropriate notices
                                                                   of record on two real properties assisted with
                                                                   Federal funds to ensure that HUD’s and the
     5
      The total CPD audits, questioned costs, and funds put        City’s interest is adequately protected; and
     to better use amounts include any American Recovery           (6) strengthen internal controls to ensure that
     and Reinvestment Act of 2009 (eight audits) and disaster      the City’s CDBG program is administered in
     recovery (two audits) type audits conducted in the CPD        accordance with Federal regulations and program
     area. The writeups for these audits are shown separately in
     chapters 5 and 6 of this semiannual report. 	                 requirements. (Audit Report: 2012-NY-1011)




15                     Chapter 4 - Community Planning and Development Programs
HUD OIG performed a corrective action                 HOME Investment
verification of recommendation 1B in audit
report 2008-FW-1012, “The City of Tulsa, OK,          Partnerships Program
Allowed Its Largest Subrecipient To Expend $1.5
Million in Unsupported CDBG Funding.”  OIG            HUD OIG audited Prince George’s County,
expanded the review to include recommendation         MD’s administration of its HOME program
1C.  The purpose of the review was to determine       and found that the County generally did not
whether HUD closed recommendations 1B and             administer its HOME program in accordance
1C in accordance with requirements and actions        with HUD requirements and guidelines.  It
taken to resolve the underlying findings.             did not ensure that three of its four active
                                                      community housing development organizations
HUD closed the recommendations before the             were eligible and operating in compliance with
City of Tulsa required the Tulsa Development          program requirements.  It also improperly
Authority to implement specific plans to              committed HOME funds and could not show
dispose of land purchased with CDBG funds             that it followed requirements related to HOME
and remit program income earned on the land.          funds it provided for rental, downpayment, and
The Authority still held land valued at more          rehabilitation assistance.  As a result, it made
than $3.1 million without specific plans for its      ineligible disbursements and could not properly
use and retained at least $42,000 in program          account for all disbursements.  The County also
income.  In addition, the Authority did not           had excess, improperly committed, or underused
provide supporting documentation to ensure            HOME funds.
that it correctly computed and remitted program
income to the City for two properties that it sold.   OIG recommended that HUD require the
                                                      County to (1) repay its HOME program $2.4
OIG recommended that HUD require the City             million in ineligible expenses, (2) provide
to repay HUD the higher of the current cost           support for $1.3 million in expenses or repay
or market value for the land the Authority still      the unsupported amount to the program, (3)
holds and either support or repay more than $2        reprogram $4.7 million in HOME funds as
million for the two properties it sold without        appropriate for eligible program activities and to
supporting calculations of program income             improve its administration of the program, and
remitted.  Due to the inability of the City to use    (4) implement procedures to ensure that HOME
these funds for eligible CDBG activities, the         funds are disbursed and used in compliance with
City should return the funds to HUD.  HUD             applicable requirements. (Audit Report: 2012-
should also require the City to report monthly        PH-1011)
on its actions to return the funds and obtain
prior HUD approval before funding future land         ***
acquisitions with CDBG funds.  Further, HUD
should reopen recommendation 1C concerning            HUD OIG audited the Municipality of
the remittance and use of program income.             Bayamón, PR’s HOME program and found that
(Audit Memorandum: 2012-FW-1803)                      the Municipality’s financial management system
                                                      (1) did not properly identify the source and
                                                      application of more than $3.5 million in HOME
                                                      funds, (2) did not support the eligibility of
                                                      more than $288,000 in program charges, and (3)
                                                      failed to disburse more than $420,000 in HOME
                                                      funds within HUD-established timeframes.  As
                                                      a result, HUD lacked assurance that funds were
                                                      adequately accounted for, safeguarded, and used
                                                      in accordance with HUD requirements.      



               Chapter 4 - Community Planning and Development Programs                                     16
     The Municipality disbursed more than $703,000         OIG recommended that HUD implement
     in HOME funds for two activities that showed          adequate procedures and controls to ensure
     signs of slow progress without assurance that the     that CPD (1) uses the tracking mechanisms
     activities would generate the intended benefits.      within HUD’s systems to sufficiently track
     As a result, HUD had no assurance that funds          all technical assistance activities regarding
     were used solely for eligible purposes and that       the HOME program, once HUD’s OneCPD
     HOME-funded activities met program objectives         Integrated Practitioner Assistance System is
     and fully provided the intended benefits.             fully implemented, and (2) sufficiently tracks
                                                           all technical assistance activities regarding
     The Municipality (1) reported to HUD more             the program until it fully implements HUD’s
     than $901,000 in HOME commitments without             OneCPD Integrated Practitioner Assistance
     executing a written agreement or identifying          System. (Audit Memorandum: 2012-CH-
     the property in accordance with HUD                   0801)
     requirements, (2) failed to reprogram and put
     to better use more than $48,000 in unexpended
     obligations associated with two activities that       Neighborhood
     were terminated, and (3) did not report and           Stabilization Program 1
     put to better use more than $62,000 in program
     income and recaptured funds.  As a result, HUD        HUD OIG audited the NSP1 administered
     had no assurance that the Municipality met            by the Texas Department of Housing and
     HOME program objectives, commitments, and             Community Affairs in Austin, TX, and found
     disbursement requirements.                            that the Department improperly obligated more
                                                           than $42,000.  In addition, it could not support
     OIG recommended that HUD require the                  more than $25 million in obligations made by
     Municipality to (1) provide all supporting            the deadline and nearly $9,000 in expenditures. 
     documentation to demonstrate the eligibility          Further, it did not report on its progress as
     and allocability of more than $4 million in           required and did not appear to be on schedule
     HOME program funds; (2) reprogram or return           to spend funds within required timeframes. As
     to its line of credit and put to better use more      a result, the Department could not assure HUD
     than $1.3 million in unexpended obligated funds       that it properly managed its more than $101
     and HOME funds maintained in its local bank           million program. 
     account; and (3) develop and implement an
     internal control plan to ensure that its financial    OIG recommended that HUD recapture
     management system complies with HUD                   the improperly obligated funds and require
     requirements, its HOME-funded activities meet         the Department to provide support for the
     the program objectives, and accurate information      unsupported obligations and costs.  (Audit
     is reported to HUD. (Audit Report: 2012-AT-           Report: 2012-FW-1013)
     1009)

     ***

     HUD OIG reviewed HUD’s technical assistance
     for the HOME program, based upon a
     congressional request, and found that CPD
     did not have a centralized system or database
     that allowed it to sufficiently track all program
     technical assistance activities and efficiently and
     effectively provide information on completed
     activities. 




17                  Chapter 4 - Community Planning and Development Programs
Investigation                                        the city as he attempted to develop the project.
                                                     A second individual also pled guilty in May 2011
                                                     to aiding and abetting, wire fraud, and bribery
         Program results           Investigations    for accepting improper benefits in connection
   Administrative-civil actions          14          with business conducted by his office. The
                                                     second defendant unlawfully obtained $66,449 in
        Convictions-pleas-
                                         22          CPD HOME funds from the city’s Community
        pretrial diversions
                                                     Development Department. He was ordered to
       Financial recoveries          $1,104,222      pay restitution to that Department. This case
                                                     was worked jointly with the Federal Bureau of
                                                     Investigation (FBI) and Internal Revenue Service-
Former Property Developer                            Criminal Investigation Division. (East St.
Sentenced in HOME Funds Fraud                        Louis, IL)

A former property developer was sentenced to
serve 14 months in Federal prison followed by 36     Former CDBG Grant
months of Federal probation and ordered to pay       Administrator Sentenced in
$180,000 in court-ordered restitution, including
$139,198 payable to HUD and $40,802 payable
                                                     Misuse of Funds Case
to a national bank. The defendant previously
pled guilty to theft of government funds and         A former CDBG grant administrator was
filing false claims.  The defendant presented        sentenced to 36 months probation and ordered
false claims to a city’s Office of Economic and      to pay restitution to HUD in the amount of
Community Development. He fraudulently used          $116,064. The defendant pled guilty earlier to
HOME funds, which should have been used to           one count of HUD fraud. Between October
rehabilitate three low-income properties in an       2002 and July 2006, the defendant received
urban community, for his own personal use.  This     a salary from a city department as the grant
case was worked jointly with the Lewiston, ME,       administrator and also formed a company for
Police Department. (Portland, ME)                    which he was paid as the executive director. As
                                                     part of the defendant’s responsibilities as the
                                                     CDBG grant administrator, he was responsible for
Builder Sentenced in HOME                            overseeing how the city spent its CDBG funds.
Funds Bribery Case                                   The defendant awarded several CDBG contracts
                                                     to the company for which he was the executive
A builder was sentenced to serve 48 months in        director. He collected a salary from the city as a
prison and ordered to pay $66,449 in restitution.    grant administrator and also collected a salary as
The defendant previously pled guilty to seven        the executive director of his company, which was
counts of wire fraud in connection with              paid using HUD CDBG funds. The loss to HUD
attempting to obtain more than $1.9 million          was more than $116,000. This case was worked
in public financing, to include $800,000 in          jointly with the FBI. (Salt Lake City, UT)
CPD HOME funds, for a failed development
located in an urban community. The defendant
contracted with a city to construct a $5.6 million
low-income affordable housing project. Instead,
he provided cash payments and promises of
future employment to the director of the city’s
Community Development Department. The
defendant admitted that he did this to ensure
that he would receive favorable treatment from



               Chapter 4 - Community Planning and Development Programs                                    18
     Asbestos Contractor Sentenced
     in Scheme To Defraud HUD

     An asbestos abatement contractor was sentenced
     to 21 months imprisonment and 2 years
     supervised release after pleading guilty to one
     count of conspiracy to defraud the government.
     A second defendant was sentenced to 36 months
     imprisonment and 2 years supervised release.
     The first defendant conspired to submit a false
     claim to HUD and made a false statement under
     the Federal Clean Air Act relating to a contract
     to remove asbestos and demolish a dilapidated
     theater using a HUD NSP1 grant. Additionally,
     the defendant conspired to give money to the
     second defendant, a town supervisor, and a town
     grant coordinator to influence the award of the
     demolition contract he received. This case was
     worked jointly with the FBI and Environmental
     Protection Agency OIG. (Detroit, MI)




19                 Chapter 4 - Community Planning and Development Programs
                                     Chapter 5
          American Recovery and Reinvestment Act of 2009


The U.S. Department of Housing and Urban Development (HUD) has received $13.61 billion in
funding under the American Recovery and Reinvestment Act of 2009 (ARRA) in several housing
program areas. Table 1 shows the HUD program areas receiving funding and the amounts
appropriated to each program.

                       Table 1: HUD programs receiving ARRA funding


      HUD program office                 Program area                  Funding amount


                                  Public Housing Capital Fund           $4,000,000,000
      Office of Public and
                                      Native American                    $510,000,000
       Indian Housing
                                     Housing Block Grant


                                   Community Development                $1,000,000,000
                                       Block Grant

                                        Neighborhood                    $2,000,000,000
                                     Stabilization Program
      Office of Community
   Planning and Development           HOME Investment                   $2,250,000,000
                                   Partnerships Program-Tax
                                   Credit Assistance Program

                                 Homelessness Prevention Fund           $1,500,000,000


                                       Assisted Housing                 $2,000,000,000
                                        Stability Grant
 Office of Multifamily Housing
                                     Green Retrofit Grant                $250,000,000




    Office of Healthy Homes         Lead Hazard Reduction                $100,000,000
    and Lead Hazard Control         Demonstration Program


                                                                       $13,610,000,000




             Chapter 5 - American Recovery and Reinvestment Act of 2009                      20
     Strategic Initiative 3: Contribute to                                                           Audit
     the strengthening of communities                              Program results
                                                                                                   21 audits6

                                                                  Questioned costs               $22.4 million
     Audit                                                    Funds put to better use            $9.6 million
     The Office of Audit’s overall oversight objectives   6

     for HUD funding under ARRA are to determine
                                                          Review of Overall ARRA Program
     whether
                                                          HUD OIG audited HUD’s oversight of four
     •	 Funds are awarded and distributed in a
                                                          selected housing programs funded by ARRA
        prompt, fair, and reasonable manner;
                                                          to determine whether HUD (1) monitored the
                                                          recipients to ensure that ARRA funds would be
     •	 The recipients and uses of all funds are
                                                          fully expended by the expenditure due dates
        transparent to the public, and the public
                                                          and (2) ensured that expired unliquidated funds
        benefits of these funds are reported clearly,
                                                          would be recaptured and returned to the U.S.
        accurately, and in a timely manner;
                                                          Department of the Treasury in accordance with
                                                          the Pay-It-Back Act. 
     •	 Funds are used for authorized purposes, and
        instances of fraud, waste, error, and abuse are
                                                          HUD adequately monitored ARRA recipients
        mitigated;
                                                          to ensure that (1) ARRA funds would be fully
                                                          expended by the expenditure due dates and (2)
     •	 Projects funded under ARRA avoid
                                                          unliquidated but expired ARRA funds would
        unnecessary delays and cost overruns; and
                                                          be identified and recaptured as appropriate. 
                                                          However, HUD was not effective in ensuring that
     •	 Program goals are achieved, including
                                                          $9.52 million in expired and unused ARRA funds
        specific program outcomes and improved
                                                          would be returned promptly to the Treasury in
        results on broader economic indicators.
                                                          accordance with the intent of the Pay-It-Back
                                                          Act. 
     In the prior semiannual reporting periods,
     HUD’s Office of Inspector General (OIG)
                                                          OIG recommended that HUD establish
     reviewed HUD’s front-end risk assessments,
                                                          policies and procedures governing the return
     audited HUD’s formula allocation dictated in
                                                          of recaptured ARRA funds and immediately
     ARRA programs, assessed the administrative
                                                          transfer the expired and unused ARRA funds
     capacity of selected grantees to effectively
                                                          to the Treasury’s general fund. (Audit Report:
     administer ARRA funds, and assessed grantee
                                                          2012-FO-0006)
     expenditures and HUD’s oversight activities.
     During this semiannual reporting period, OIG’s
     audits continue to focus on grantee expenditures
     and HUD’s oversight activities.

     The following section demonstrates the audit
     work that has been completed during this
     reporting period.

                                                          6
                                                           The total ARRA-related audits consist of community
                                                          planning and development, public and Indian housing,
                                                          and “other” audits. The questioned costs and funds put to
                                                          better use amounts relate only to ARRA-related costs.	




21                 Chapter 5 - American Recovery and Reinvestment Act of 2009
Office of Public and Indian                          on ineligible costs pertaining to nondwelling
                                                     equipment purchases for their central office
Housing Audits and Reviews                           cost center, and (3) provide documentation to
                                                     justify more than $30,000 in unsupported costs
Public Housing Capital Fund                          requisitioned in excess of the Authority’s needs.
                                                     (Audit Report: 2012-NY-1012)
HUD OIG audited the Public Housing Capital           HUD OIG audited the ARRA Public Housing
Fund Stimulus (Formula) program, funded              Capital Fund competitive grants awarded
under ARRA, awarded to the Buffalo Municipal
                                                     to the Flint Housing Commission, in Flint,
Housing Authority in Buffalo, NY, to determine
                                                     MI, to determine whether the Commission
whether Authority officials (1) procured
                                                     administered its grants in accordance with
contracts in accordance with HUD regulations
                                                     ARRA, HUD’s, and its own requirements. 
and (2) obligated and expended capital funds in
accordance with ARRA and submitted mandated
                                                     The Commission generally complied with the
reports in a timely manner and with accurate
                                                     requirements of the Davis-Bacon Act for all four
information.
                                                     of its ARRA competitive grants.  However, it
                                                     failed to follow HUD’s and its own procurement
Authority officials did not always comply with
                                                     requirements for its ARRA competitive
the procurement requirements of the ARRA
                                                     grants.  Specifically, it did not (1) provide an
program and, therefore, did not properly
                                                     adequate rationale for using a noncompetitive
obligate ARRA funds.  Specifically, Authority
                                                     procurement method for its ARRA contracts, (2)
officials did not ensure that the procurement
                                                     prepare an independent cost estimate or analysis
of ARRA contracts was conducted in a manner
                                                     before the solicitation of offers, and (3) obtain
that provided full and open competition. 
                                                     approval from HUD and its board before revising
In addition, payments were made on other
                                                     its plan for use of the funds.  Additionally,
obligations that were executed after the ARRA
                                                     the Commission did not (1) issue payments
obligation deadline. Authority officials charged
                                                     to its contractor in accordance with HUD’s
questionable expenditures to the ARRA Capital
                                                     requirements and (2) ensure that its contractor
Fund grant.  Specifically, they (1) expended
                                                     included Section 3 clauses in contracts for
ARRA funds on nondwelling equipment
                                                     work funded by the ARRA grants.  As a result,
purchases that benefited their central office cost
                                                     the Commission hindered full and open
center, (2) requisitioned funding from HUD’s
                                                     competition, and HUD and the Commission
Line of Credit Control System in excess of the
                                                     lacked assurance that ARRA competitive grant
amounts needed, (3) failed to expend funds
                                                     funds were used appropriately.
in accordance with their ARRA Capital Fund
annual statement, and (4) did not accurately
                                                     OIG recommended that HUD require the
report ARRA expenditure and job creation or
                                                     Commission to (1) reimburse HUD more than
retention information.
                                                     $3 million in grant funds for the inadequate
                                                     procedures used in the procurement process
OIG recommended that HUD instruct Authority
                                                     and (2) implement adequate procedures and
officials to (1) provide documentation or
                                                     controls to ensure that contracts are awarded
justification for more than $9.7 million expended
                                                     and managed in accordance with HUD’s
on costs that did not meet ARRA procurement
                                                     requirements and its own procurement policy.
and obligation requirements and reimburse
the U.S. Treasury the amounts determined to          (Audit Report: 2012-CH-1013)
be ineligible from non-Federal or other eligible
funds, (2) reimburse the U.S. Treasury from non-     ***
Federal funds nearly $111,000 that was expended




              Chapter 5 - American Recovery and Reinvestment Act of 2009                                 22
     HUD OIG audited HUD’s Public Housing                determine whether the City complied with
     Capital Fund program and ARRA Capital Fund          applicable ARRA requirements for CDBG-R
     program monitoring procedures to determine          funds and properly reported its ARRA activities.
     whether HUD’s Capital Fund program
     monitoring procedures and reporting system          The City did not comply with applicable
     details were adequate to ensure that public         requirements for CDBG-R funds and did not
     housing agencies disclosed and used property        properly report its ARRA activities.  Specifically,
     insurance recoveries in accordance with program     it (1) approved contracts that did not comply
     requirements.                                       with Federal procurement requirements, (2)
                                                         did not adequately enforce Davis-Bacon Act
     HUD did not adequately monitor insurance            or Section 3 requirements, and (3) reported
     recoveries to ensure that public housing agencies   incomplete and inaccurate information.  As
     appropriately applied the applicable credits        a result, the City used CDBG-R funds for
     either as a cost reduction or cash refund as        unsupported expenses, failed to ensure that
     appropriate.  HUD’s program guidance was            all contractors paid the appropriate wages
     outdated, and the procedures for the annual         and disadvantaged workers received economic
     in-office review of the agencies’ ongoing capital   opportunities, and did not have transparency in
     activities and for monitoring ARRA program          its reported use of ARRA funds.
     grants were not sufficiently detailed to address
     the review of insurance recoveries.  In addition,   OIG recommended that HUD require the City
     the information HUD required agencies to            to (1) support that more than $1.3 million
     submit in their annual plans and in HUD’s           in ARRA contracts awarded was granted
     Financial Assessment Sub-System lacked              at a reasonable cost and repay any amount
     sufficient detail to be effectively used in the     determined to be unreasonable or ineligible, (2)
     monitoring of insurance recoveries.                 review all payments to its contractors’ employees
                                                         to determine whether wage restitution is
     OIG recommended that HUD (1) update                 owed, and (3) make any needed corrections
     its information collection requirements to          in FederalReporting.gov.  In addition, OIG
     ensure that public housing agencies disclose        recommended that HUD assist the City in
     insurance recoveries, (2) revise its policies and   receiving formal training on the issues identified.
     procedures to ensure oversight of the disclosure    (Audit Report: 2012-KC-1006)
     of insurance recoveries, and (3) issue a notice
     with guidance for public housing agencies related
     to the procedures for the disclosure and use of
                                                         Neighborhood
     insurance recoveries. (Audit Report: 2012-LA-       Stabilization Program
     0004)
                                                         HUD OIG audited the City of Phoenix, AZ’s
                                                         Neighborhood Stabilization Program (NSP)
     Office of Community                                 1 and 2 grants to determine whether the City
     Planning and Development                            administered its NSP2 grant in accordance with
     Audits and Reviews                                  HUD requirements.  OIG also reviewed the
                                                         Park Lee Apartments rehabilitation activity for
                                                         compliance with NSP1 and NSP2 requirements. 
     Community Development
                                                         The City did not administer its NSP1 and
     Block Grant Program                                 NSP2 grants in accordance with HUD rules and
                                                         regulations.  Specifically, the City’s rehabilitation
     HUD OIG reviewed the Community
                                                         contract administration was not adequate and
     Development Block Grant-Recovery (CDBG-R)
                                                         did not comply with the NSP2 grant agreement,
     program of the City of St. Louis, MO, to



23                 Chapter 5 - American Recovery and Reinvestment Act of 2009
resulting in an insufficient contract scope of
work, inadequate oversight and verification of
                                                      Investigation	
contract work and expenditures, insufficient
maintenance of procurement documentation,             Former Housing Authority
inappropriate contract modifications,
installation of substandard air conditioning
                                                      Employee Sentenced for
units, and noncompliance with the grant’s buy         Stealing ARRA Funds
American requirements.  Additionally, the City
inappropriately charged the NSP1 and NSP2             A Sokaogon Chippewa Community Housing
grants for actual losses that could have been         Department employee and former community
covered by insurance, unsupported Park Lee            planner who administered HUD Indian Housing
Apartments additional payments, and salaries          Block Grant funds was sentenced following a
and wages that did not comply with Federal cost       bench trial in which she was found guilty of
principles.                                           theft of government funds. The defendant was
                                                      sentenced to 15 months incarceration and 36
OIG recommended that HUD require the City             months supervised release and was ordered to
to (1) stop incurring costs for NSP-funded            pay a $5,000 fine and $13,054 in restitution to
multifamily rehabilitation projects until HUD         HUD. Between December 2009 and January
determines whether the City has the capacity          2010, the defendant diverted and personally used
to carry out these activities in compliance with      $13,054 in ARRA funds to purchase a number
HUD rules and regulations; (2) support or repay       of high-end appliances, including a refrigerator,
from non-Federal funds expenditures totaling          a stove, an oven, a dishwasher, a microwave, a
$6.16 million; (3) reimburse HUD more than            washer, and a dryer. (Milwaukee, WI)
$140,000 from non-Federal funds for ineligible
actual loss charges related to the theft and
vandalism of air conditioners; (4) reimburse the
City’s NSP2 grant from non-Federal funds nearly
$391,000 for ineligible costs; and (5) develop and
implement policies and procedures to ensure
that HUD-funded projects and construction
contracts are managed according to HUD rules
and regulations and adequately monitored and
grant charges comply with Federal cost eligibility
requirements. OIG also recommended that
HUD determine legal sufficiency and if legally
sufficient, pursue civil remedies against the City,
its principals, its contractor, or all of the above
for incorrectly certifying to the integrity of the
data or that due diligence was exercised during
the approval of rehabilitation payments. (Audit
Report: 2012-LA-1008)




              Chapter 5 - American Recovery and Reinvestment Act of 2009                                  24
                                                 Chapter 6
                                        Disaster Relief Programs


     In response to disasters, Congress may                          HUD OIG audited the Lower Manhattan
     appropriate additional funding as Disaster                      Development Corporation (LMDC) in New
     Recovery Assistance grants to rebuild the                       York, NY, regarding its administration of the
     affected areas and provide crucial seed money to                $2.783 billion in Community Development
     start the recovery process.                                     Block Grant (CDBG) Disaster Recovery
                                                                     Assistance funds awarded to the State of New
     Over the past several years, disaster funding for               York in the aftermath of the September 11,
     the U.S. Department of Housing and Urban                        2011, terrorist attacks on the World Trade
     Development (HUD) has exceeded $30 billion,                     Center in New York City. The objective of
     from which HUD provides flexible grants to                      this audit was to determine whether LMDC
     help cities, counties, and States recover from                  officials disbursed CDBG Disaster Recovery
     presidentially declared disasters. These active                 Assistance funds in accordance with the
     disaster grants nationwide have approximately                   guidelines established under the HUD-approved
     $27 billion in obligations and $21.8 billion                    partial action plans for the Chinatown Clean
     in disbursements, with $8.2 billion yet to be                   Streets and the New York Stock Exchange
     expended. Of the total $30 billion in current                   Security and Streetscape programs. 
     HUD disaster funds, $19.6 billion was provided
     for Hurricanes Katrina, Rita, and Wilma.                        LMDC officials generally disbursed the funds
     Regarding the $19.6 billion in funds provided                   reviewed in accordance with the guidelines
     to Gulf Coast States, $17.2 billion, or 87.6                    established under the HUD-approved partial
     percent of the funds, had been disbursed as of                  action plans.  However, officials approved
     September 30, 2012.                                             invoices for reimbursement that were not always
                                                                     consistent with the terms of the subrecipient
     Keeping up with communities in the recovery                     agreements and all applicable requirements. 
     process can be a challenging position for
     HUD. The HUD Office of Inspector General                        OIG recommended that HUD direct LMDC
     (OIG) continues to take steps to ensure that                    officials to (1) strengthen controls over
     the Department remains diligent in assisting                    the invoice approval process; (2) recoup,
     communities with their recovery efforts.                        through offsets of future reimbursements,
                                                                     nearly $108,000 in ineligible and more than
     Strategic Initiative 3: Contribute to the                       $13,000 in unreasonable costs reimbursed
     strengthening of communities                                    under the Chinatown Clean Streets program;
                                                                     and (3) recover, through offsets of future
                                                                     reimbursements, more than $4,000 in ineligible
     Audit                                                           costs and provide supporting documentation for
                                                                     more than $34,000 in costs reimbursed under
                                                Audit                the New York Stock Exchange Security and
              Program results                                        Streetscape program. (Audit Report:
                                              2 audits7
                                                                     2012-NY-1010)
             Questioned costs                 $159,000

         Funds put to better use               $2,000
                                                                 7




     7
      The disaster grant program audits are community planning
     and development audits. The questioned costs and funds
     put to better use amounts relate to only disaster-related
     costs.	




25                                     Chapter 6 - Disaster Relief Programs
Investigation                                        the rehabilitation work. This investigation was
                                                     conducted by HUD OIG, the FBI, and the New
                                                     Orleans Inspector General. (New Orleans, LA)
Former CDBG Grant
Administrator Found
Guilty After Jury Trial
The former CDBG grant administrator of
a large metropolitan city was found guilty,
following a jury trial, of conspiracy and theft
of Federal funds and conspiracy for impeding
or obstructing a Federal audit. The defendant
conspired with others to illegally convey and sell
a parcel of land. The land was owned by one
of the coconspirators and was purchased by the
city she worked for using Federal Emergency
Management Agency disaster funds. The
defendant concealed the fact that the HUD
CDBG Disaster Assistance grant program was
not administered in accordance with the grant
agreement and convinced HUD OIG auditors
that the city complied with the grant agreement.
During a 2010 HUD OIG audit, the defendant
instructed her staff to alter or omit documents
that documented a duplication of benefits and
transmitted the fraudulent information via
email to HUD OIG auditors. An individual who
worked for the defendant entered into a pretrial
diversion agreement with the government as a
result of this investigation. The city was awarded
an aggregate amount of $37.6 million in CDBG
funds for recovery efforts in the aftermath of
Hurricane Katrina. This case was worked jointly
with the Federal Bureau of Investigation (FBI)
and the Alabama Attorney General’s Office.
(Mobile, AL)


Contractor Pleads Guilty
in Overbilling Scheme
A contractor with the New Orleans Affordable
Homeownership Program (NOAH) pled guilty
to conspiracy. The defendant, along with others,
conspired to steal CDBG grant funds provided to
NOAH that were designated to be used to repair
homes damaged by Hurricane Katrina. The
scheme involved overbilling for charges related to



                              Chapter 6 - Disaster Relief Programs                                     26
                                                    Chapter 7
 Other Significant Audits and Investigations and the OIG Hotline


     Strategic Initiative 4:                                       the review objective, OIG reviewed 110
     Contribute to improving HUD’s                                 statistically selected loans from a universe of
     execution of and accountability for fiscal                    8,724 FHA-insured loans, which Countrywide
     responsibilities as a relevant and problem-                   and two of its related entities closed between
                                                                   January 1, 2003, and December 31, 2009, and
     solving advisor to the Department
                                                                   that met specific loan default criteria. OIG
                                                                   referred its findings to the U.S. Attorney’s Office
                                                                   of the Eastern District of New York.  Bank of
     Audit                                                         America and its affiliated entities entered into a
                                                                   settlement agreement with the U.S. Department
                                                                   of Justice (DOJ). The consent judgment stated
                                                  Audit            that the parties agreed to resolve their claims
              Program results
                                                18 audits8         without the need for litigation and that Bank
                                                                   of America did not admit the allegations of
             Questioned costs                $807.3 million*       the complaint other than those facts deemed
                                                                   necessary to the jurisdiction of the court. On
          Funds put to better use             $14.8 million
                                                                   April 4, 2012, the U.S. District Judge for the
     8
      *A portion of the program results and related costs          District of Columbia approved the consent
     (questioned costs - $485,363,750 and funds put to better      judgment, which was based in large part on
     use - $5 million) was the result of work performed jointly    OIG’s review of the 110 statistically selected
     with the Office of Investigation.
                                                                   FHA loans.  As a result, Bank of America
                                                                   paid FHA nearly $471 million to settle the
                                                                   Countrywide portion of the consent judgment.
     Bank of America Settled Alleged
     Violations of the False Claims Act                            Bank of America and its affiliated entities
     by Countrywide Home Loans, Inc.                               also agreed to a deferred settlement payment
                                                                   to FHA of $850 million.  The $850 million is
     HUD OIG conducted a review of loans                           deferred for 3 years from the effective date of
     underwritten by Countrywide Home Loans,                       the consent judgment to allow Bank of America
     Inc., and its divisions Countrywide Bank, FSB,                to conduct a one-time, nationwide modification
     and Countrywide Mortgage Ventures, LLC, to                    program to be offered to underwater borrowers
     determine whether Countrywide underwrote                      with economic hardship on first-lien loans. 
     Federal Housing Administration (FHA) loans in                 Bank of America will have no obligation to
     accordance with FHA regulations.                              make the $850 million deferred settlement
                                                                   payment to FHA if it satisfactorily completes the
     Countrywide is a subsidiary of Bank of                        stipulations of the modification program. (Audit
     America, Charlotte, NC. Bank of America                       Memorandum: 2012-CF-1809)
     acquired Countrywide on January 11, 2008.
     Countrywide’s FHA approval was voluntarily
     terminated on September 2, 2010. To address
                                                                   Deutsche Bank Settled Alleged
                                                                   Violations of the False Claims
     8
      The total “other” audits, questioned costs, and funds put
     to better use amounts include any American Recovery           Act by MortgageIT, Inc.
     and Reinvestment Act of 2009 (two audits) type audits
     conducted in the “other” area. The writeups for these         HUD OIG, assisted the U.S. Attorney’s Office,
     audits are shown separately in chapter 5 of this semiannual
                                                                   Southern District of New York, in conducting
     report.




27          Chapter 7 - Other Significant Audits and Investigations and the OIG Hotline
a review of MortgageIT, Inc., headquartered in      CitiMortgage, Inc., Settled
New York, NY.  The objective of the review was
to determine whether the MortgageIT loans           Allegations of Failing To
reviewed were underwritten in violation of FHA      Fully Comply With FHA
regulations.                                        Requirements and Submitting
OIG reviewed 21 FHA loans and other                 False Certifications to
documentation.  On May 3, 2011, the U.S.            HUD on FHA Loans
Attorney’s Office commenced a civil action
against Deutsche Bank and MortgageIT under          HUD OIG assisted the U.S. Attorney’s Office,
the False Claims Act and the common law.            Southern District of New York, in conducting
On May 10, 2012, Deutsche Bank and related          a review of CitiMortgage, Inc.  CitiMortgage
entities agreed to settle the complaint and pay     is a direct subsidiary of Citibank, N.A., and
$202.3 million to the United States to resolve      Citibank is an indirect subsidiary of Citigroup. 
the Federal Government’s claims for damages         CitiMortgage is based in O’Fallon, MO.  The
and penalties under the False Claims Act.  Of       review began due to a qui tam filing in the U.S.
that amount, FHA was to receive approximately       District Court for the Southern District of New
$196 million.  As part of the settlement,           York. 
MortgageIT admitted, acknowledged, and
accepted responsibility for various conduct,        CitiMortgage has participated in the FHA direct
including failing to conform fully with FHA         endorsement lender program since 1981.  The
rules for maintaining a quality control program     direct endorsement lender program authorizes
and conducting reviews of all early payment         private-sector mortgage lenders to approve
defaults on loans endorsed for FHA insurance.       mortgage loans for insurance by FHA.  Lenders
It also agreed that it did not conform to all       approved for the program must follow various
applicable FHA regulations from 1999 through        FHA requirements and provide annual and per
2009.  MortgageIT further agreed that it falsely    loan certifications that the lender complies with
certified to FHA that certain loans were eligible   these requirements when underwriting and
for FHA mortgage insurance, and HUD incurred        approving loans for FHA insurance. 
losses when some of those loans defaulted. 
Deutsche Bank admitted, acknowledged, and           In 2011, the qui tam relator filed a complaint
accepted responsibility for the fact that after     alleging, among other things, that CitiMortgage,
MortgageIT became a wholly owned, indirect          Citibank, and Citigroup violated the False
subsidiary of Deutsche Bank in January 2007,        Claims Act, 31 U.S.C. (United States Code)
Deutsche Bank defendants were in a position         3729 et seq., in connection with CitiMortgage’s
to know that the operations of MortgageIT did       participation in the direct endorsement
not conform fully to all of FHA’s regulations,      lender program.  The complaint alleged that
policies, and handbooks.  It also agreed that one   CitiMortgage, Citibank, and Citigroup caused
or more of the annual certifications made to        the United States or its departments or agents
FHA falsely stated that MortgageIT conformed        to insure mortgages originated by these entities,
to all applicable FHA regulations. (Audit           based on the entities’ false statements that these
Memorandum: 2012-CF-1811)                           loans were consistent with applicable regulations
                                                    and rules regarding the quality of the mortgages
                                                    or loans.  On or about February 13, 2012, the
                                                    U.S. Attorney’s Office intervened (joined the
                                                    relator’s case on behalf of HUD) in the civil
                                                    action against these entities.  On February 15,
                                                    2012, CitiMortgage, Citibank, and Citigroup
                                                    agreed to settle the complaint by paying the



      Chapter 7 - Other Significant Audits and Investigations and the OIG Hotline                        28
     Federal Government and relator $158.3 million.        (Audit Memorandum: 2012-CF-1810)
     The settlement payment included the portion
     payable to DOJ and the relator for bringing the
     lawsuit, and the remainder of the more than           Settlement of Alleged Violations
     $122.8 million was paid to the FHA insurance          of the Financial Institutions
     fund. (Audit Memorandum: 2012-CF-1814)
                                                           Reform, Recovery, and
                                                           Enforcement Act of 1989
     Flagstar Bank, FSB, Settled
     False Claims Act Allegations of                       HUD OIG conducted a civil fraud review of
     Submitting False Certifications                       an alleged foreclosure rescue scheme in Seal
                                                           Beach, CA.  The alleged scheme involved more
     to HUD on FHA Loans                                   than 100 properties in three States that were
                                                           financed through FHA and conventional loans
     HUD OIG assisted the U.S. Attorney’s Office,
                                                           and allegedly defrauded distressed homeowners,
     Southern District of New York, in conducting
                                                           renters, and lenders.  Based on OIG’s work, the
     a review of Flagstar Bank, FSB, to determine
                                                           U.S. Attorney’s Office of the Central District of
     whether Flagstar conducted its operations in the
                                                           California filed a complaint in June 2011.  The
     underwriting of FHA loans in accordance with
                                                           complaint alleged that the complainant
     FHA regulations.
                                                           perpetrated a fraudulent scheme that involved
                                                           mail fraud, bank fraud, and false statements
     Flagstar Bank is a supervised direct endorsement
                                                           affecting financial institutions, which violated
     lender headquartered in Troy, MI.  Since 1988,
                                                           the Financial Institutions Reform, Recovery,
     Flagstar has been a participant in the direct
                                                           and Enforcement Act of 1989.  On July 20,
     endorsement lender program. 
                                                           2012, the complainant entered into a settlement
                                                           agreement with DOJ and agreed  to pay a $5
     Flagstar did not conduct its operations in
                                                           million civil penalty judgment.  He also agreed to
     the underwriting of FHA loans in accordance
                                                           other stipulations, including but not limited to
     with FHA regulations.  On February 24, 2012,
                                                           being prohibited from participating in the home
     Flagstar admitted, acknowledged, and accepted
                                                           finance or real estate industries and being barred
     responsibility for submitting false certifications
                                                           from filing bankruptcy petitions on behalf of
     to HUD about the eligibility of its loans for
                                                           himself or any other person or entity, both for a
     FHA insurance.  In a settlement reached with
                                                           period of 10 years or until such time as the civil
     the U.S. Attorney’s Office, the lender agreed
                                                           penalty judgment is satisfied by full payment. 
     to pay $132.8 million to the United States in
     damages and penalties under the False Claims
                                                           In agreeing to the settlement, the complainant
     Act and to reform its business practices.  Flagstar
                                                           did not admit to liability or fault.  The
     admitted that during the period January 1, 2002,
                                                           settlement agreement was accepted by the
     to February 24, 2012, it delegated underwriting
                                                           court and filed on July 31, 2012. (Audit
     decisions to unauthorized staff.  The lender also
                                                           Memorandum: 2012-CF-1813)
     admitted that it underwrote and approved for
     FHA insurance loans that did not comply with
     certain FHA underwriting requirements, and
     HUD paid insurance claims on these ineligible
     loans.  Further, the U.S. Attorney’s Office
     announced that Flagstar set daily quotas for its
     HUD-approved underwriters and underwriting
     assistants and paid these employees substantial
     incentive awards for exceeding daily quotas.




29         Chapter 7 - Other Significant Audits and Investigations and the OIG Hotline
Bartlesville Health Care Center,                    conference spending and related travel.
Inc., Owners and Lender                             OIG performed 34 such reviews between
Settled Alleged Violations                          October 1995 and January 2012. Its audit reports
of the False Claims Act                             disclosed immaterial instances of unsupported,
                                                    ineligible, or unnecessary travel expenses by
HUD OIG audited three related nursing facilities    HUD employees or personnel of entities that
in Bartlesville, OK: Bartlesville Health Care       administered HUD funds. HUD has addressed
Center, Inc., doing business as Silver Lake Care    the recommendations associated with these
Center; Mannford Health Care Center, Inc.,          reports to OIG’s satisfaction, and all are closed.
doing business as Cimarron Pointe Care Center;      The allegations reviewed were either unfounded
and Owasso Nursing Center, Inc., doing business     or resulted only in administrative actions.
as Sequoyah Pointe Living Center. The audit         Therefore, OIG made no recommendations.
objective was to determine whether the owners       (Inspections and Evaluations:  2012-IE-0801)
of Bartlesville, Mannford, and Owasso and the        
multifamily accelerated processing lender, Harry
Mortgage, followed HUD requirements when            Investigation
refinancing the nursing facilities’ mortgages. 
                                                    In addition to investigating fraud and thefts
Less than 1 year before the FHA-insured
                                                    against the major HUD programs, the HUD OIG
refinance, Bartlesville obtained a non-FHA-
                                                    Office of Investigation pursues investigations of
insured second mortgage to pay its owners
                                                    other crimes against HUD programs, including
$2.6 million.  Harry Mortgage should not
                                                    the theft of funds from the Government
have recommended to HUD that FHA insure
                                                    National Mortgage Association. HUD OIG
this mortgage.  The FHA-insured refinance
                                                    is taking a proactive role to combat consumer
mortgage inappropriately increased the risk to
                                                    fraud, including mortgage loan origination
FHA’s insurance fund, and the owners received
                                                    and foreclosure rescue scams. Many of these
nearly $2.6 million when they refinanced the
                                                    investigations are conducted jointly with the
nursing home with FHA insurance.  Due to the
                                                    Federal Bureau of Investigation and other
seriousness of the findings, OIG referred the
                                                    Federal, State, and local law enforcement
matter to DOJ through HUD’s Associate General
                                                    partners.
Counsel of Program Enforcement.

Through a civil settlement, the government                    Program results          Investigations
will receive more than $5.3 million from the            Administrative-civil actions          8
owners and lender.  HUD will receive more
                                                            Convictions-pleas-
than $2.6 million, the amount it lost on the sale                                             1
                                                            pretrial diversions
of the note, and the U.S. Department of the
Treasury will receive nearly $2.7 million. (Audit          Financial recoveries           $11,200
Memorandum: 2012-FW-1805)

Evaluation of HUD’s                                 OIG Hotline
Conference Spending
                                                    The HUD OIG hotline is operational 5 days a
In response to a congressional request, HUD         week, Monday through Friday, from 10:00 a.m. to
OIG compiled information from audits and            6:00 p.m. Eastern Standard Time.  The hotline
investigative activities it performed that          is staffed by 10 full-time OIG employees, who
included findings or allegations regarding HUD’s    take allegations of waste, fraud, abuse, or serious




      Chapter 7 - Other Significant Audits and Investigations and the OIG Hotline                         30
     mismanagement in HUD or HUD-funded                   recoveries included repayments of overpaid
     programs from HUD employees, contractors, and        rental subsidies. Some of the funds that could
     the general public. The hotline also coordinates     be put to better use were the result of cases in
     reviews of allegations with internal audit and       which tenants were terminated from public
     investigative units or with HUD program offices.     housing or multifamily housing programs for
                                                          improperly reporting their incomes or family
     During this reporting period, the hotline received   composition to qualify for rental assistance.
     and processed 4,616 contacts – 81 percent
     received by telephone, 11 percent by email,
     and 7 percent by mail and fax.  Every allegation
     determined to be related to the OIG mission is
     logged into the hotline database and tracked.

     Of the contacts received, 387 (8 percent)
     were related to the mission of OIG and were
     addressed as hotline case referrals. Hotline cases
     are referred to the OIG Offices of Audit and
     Investigation or to responsible HUD program
     offices for action and response. The following
     illustration shows the distribution of hotline
     cases and noncase referrals by percentage.




     The hotline closed 148 cases this reporting
     period. The closed hotline cases included 33
     substantiated allegations. The Department
     took corrective actions that resulted in $172,288
     in recoveries of losses and $623,886 in HUD
     funding that could be put to better use. The




31         Chapter 7 - Other Significant Audits and Investigations and the OIG Hotline
                                               Chapter 8
                 Legislation, Regulation, and Other Directives


Reviewing and making recommendations on                       instances in which HECM mortgagors fail to
legislation, regulations, and policy issues is a              pay property charges after the available HECM
critical part of the Office of Inspector General’s            proceeds have been exhausted and enhance
(OIG) responsibilities under the Inspector                    clarity concerning when HECMs are “due and
General Act. During this 6-month reporting                    payable” by establishing specific timeframes for
period, OIG has committed approximately                       “due and payable” notifications and revising the
573 hours to reviewing 131 issuances.9 The                    “due date” for purposes of computing HECM
draft directives consisted of 18 notices of                   insurance claims. In addition, the proposed
funding availability, 77 mortgagee letters                    rule would establish a new property inspection
and notices, and 36 other directives. OIG                     requirement to ensure that a property that is the
provided comments on 29 percent (38 of the                    security for a HECM is adequately maintained
131 reviewed) of these draft directives.                      and meets applicable property standards. While
                                                              OIG is encouraged by the proposed regulation
                                                              changes governing the HECM program and
Notices and Policy Issuances                                  believes it will positively strengthen program
                                                              weaknesses, OIG did express concerns regarding
                                                              (1) ensuring that property taxes are current at
Single-Family Housing                                         the time of loan closing, (2) requiring that a
                                                              set-aside of funding be a requirement of funding
During this 6-month period, OIG reviewed                      versus an option to handle payment of taxes and
and commented on various departmental                         insurance, (3) whether a 2-year cap on insurance
clearance items affecting the Federal Housing                 benefits for advances on property charges is too
Administration’s (FHA) single-family programs.                long, and (4) how often property inspections
A selection of what was reviewed is summarized                should be performed.
below.
                                                              Risk management - As part of HUD’s efforts
HECM program - In response to our audit report                to strengthen the risk management practices
2010-FW-0003, issued August 25, 2010, HUD                     of FHA, HUD published a final rule in 2010,
sent through departmental clearance a proposed                revising its regulations pertaining to the FHA
rule addressing requirements related to the                   approval of mortgage lenders. That final rule
mortgagors’ obligations and payment of property               increased the net worth requirement for FHA-
charges and the processes for mortgagors and                  approved lenders and mortgagees, eliminated
mortgagees to follow when the mortgagors fail                 HUD’s approval of loan correspondents, and
to comply with the obligations under the terms                amended the general standards for lenders and
of the Home Equity Conversion Mortgage                        mortgagees. However, on August 24, 2012,
(HECM) program.  The proposed rule would                      HUD published a final rule that made several
also cap the amount of insurance benefits                     clarifications and corrections to the provisions of
paid in connection with a claim involving                     the prior final rule. Specifically, the August 2012
amounts advanced by the mortgagee for those                   final rule
9
 Issuances require internal clearance through OIG.
Issuances include documents such as handbooks, mortgagee      •	 Clarified liquidity requirements for FHA-
letters, and notices. Issuances generally supplement             approved lenders and mortgagees. FHA-
existing regulatory or statutory requirements that pertain       approved non-small business lenders
to HUD programs or operations. Issuances also include
Federal Register publications that introduce new or revised
                                                                 and mortgagees were required to have a
rules and policies prescribed by statutes or executive           minimum net worth of $1 million, of which
order.	                                                          20 percent must be liquid assets consisting



                     Chapter 8 - Legislation, Regulation, and Other Directives                                      32
         of cash or its equivalent acceptable to the      lenders and mortgagees. OIG met with HUD
         HUD Secretary. The 20 percent intent of the      during this 6-month period and discussed its
         liquidity requirement applies solely to the      concerns. HUD agreed to revise language in
         required minimum net worth instead of a          the proposed rule to address OIG’s concerns.
         lender’s net worth.                              HUD resubmitted the proposed rule during
                                                          this 6-month period with changes that
     •	 Clarified the definition of a sponsored third-    addressed OIG’s concerns, and OIG lifted the
        party originator and that a sponsored third-      nonconcurrence. HUD has not yet published
        party originator may hold a Title I contract      the final rule, which will have an impact only on
        of insurance or Title II origination approval     the requirements for submitting annual financial
        agreement if it is also an FHA-approved           statements by small supervised lenders and
        lender or mortgagee.                              mortgagees.

     •	 Removed references to loan correspondents,
        loan originators, and other outdated terms        Office of Healthcare Programs
        and when appropriate, replaced those terms
        with “sponsored third-party originator.”          The Office of Healthcare Programs submitted
                                                          a final rule to implement regulatory changes
     Loss mitigation – OIG reviewed a proposed            regarding how operators of healthcare facilities
     mortgagee letter concerning loss mitigation          treat project income. The rule is in response to
     expectations required of servicers. Some of the      an audit report issued in 2002 (2002-KC-0002).
     topics covered included (1) timely notification to   The changes were needed to ensure that program
     borrowers after review, (2) timing of foreclosure    requirements are sufficient to meet increased
     initiation, (3) loss mitigation options during       demand and prevent mortgage defaults that not
     the foreclosure process, (4) extensions of time      only impose a risk to the FHA insurance fund,
     for loss mitigation during foreclosure, and (5)      but can also jeopardize the safety and stability of
     terminating foreclosure proceedings. OIG also        healthcare facilities and their residents. Changes
     reviewed another proposed mortgagee letter           were also made to the physical inspection
     establishing new requirements for FHA’s loss         requirements and mortgage insurance contract
     mitigation home retention options in an effort       requirements.
     to help reduce the number of full claims against
     the FHA insurance fund by assisting a greater        Public and Indian Housing
     number of qualified, distressed mortgagors with
     staying in their homes.                              Rental Assistance Demonstration Program –
                                                          The notice responds to comments received
     Financial reporting – In the prior reporting         and provides instructions for the full program,
     period, OIG reviewed a proposed rule that            including eligibility and selection criteria. OIG
     would streamline the FHA financial statement         commented that the front-end risk assessment
     reporting requirements for lenders and               should be completed before implementation.
     mortgagees that are supervised by a Federal          During this reporting period, the Office of Public
     banking agency and the consolidated assets           and Indian Housing (PIH) issued a notice for the
     of which do not meet the threshold set by            full implementation of the program; however, a
     their supervising Federal banking agency for         front-end risk assessment was not started until
     submission of audited financial statements           June 2012 and has yet to be completed.
     (currently set at $500 million in consolidated
     assets). OIG had nonconcurred on this
     original proposed rule due to concerns with
     HUD’s removing an important control in
     the FHA process to monitor its approved




33                    Chapter 8 - Legislation, Regulation, and Other Directives
Community Planning
and Development
HOME - Congress mandated changes to the
HOME Investment Partnerships Program
(HOME) in the Consolidated and Further
Continuing Appropriations Act of 2012. The Act
requires participating jurisdictions to (1) repay
HOME funds invested in projects that are not
completed within 4 years of the commitment
date unless a waiver is given by HUD, (2)
commit fiscal year (FY) 2012 HOME funds only
when a project has been properly underwritten
and market conditions examined to ensure that
there is adequate need for the HOME project,
(3) convert any FY 2012 home ownership units
to HOME-assisted rental units if they are not
sold within 6 months, and (4) provide FY 2012
HOME funds only to community housing
development organizations that have shown that
they have staff with demonstrated development
experience. On May 8, 2012, HUD issued Notice
CPD 12-007 to implement changes required by
the Act.

However, HUD previously proposed other
significant changes to the Office of Community
Planning and Development’s HOME program
regulations.  HUD OIG generally agreed
with the proposed changes but included
additional changes, which HUD OIG believes
will strengthen the program. These proposed
changes had not become final as of September
30, 2012. Although there are similarities
between the law mandated by Congress and
the regulatory changes proposed by HUD, the
Act required HUD to immediately implement
the congressional requirements on all FY 2012
HOME-funded activities.




                 Chapter 8 - Legislation, Regulation, and Other Directives   34
                                           Chapter 9
                                          Audit Resolution


     In the audit resolution process, Office of          eligible activities in time to avoid losing them to
     Inspector General (OIG) and U.S. Department         recapture by the U.S. Treasury under provisions
     of Housing and Urban Development                    of Public Law 101-510.
     (HUD) management agree upon the needed               
     actions and timeframes for resolving audit          OIG rejected two management decisions
     recommendations. Through this process, OIG          proposed by CPD to address the
     hopes to achieve measurable improvements in         recommendation because they did not provide
     HUD programs and operations. The overall            for the establishment and implementation of
     responsibility for ensuring that the agreed-        all of the controls that are needed to address
     upon changes are implemented rests with HUD         the recommendation. CPD has not responded
     managers. This chapter describes significant        to our follow-up regarding the need for a
     management decisions with which OIG                 management decision for this recommendation.
     disagrees. It also contains a status report on
     HUD’s implementation of the Federal Financial       OIG also recommended that CPD obtain a
     Management Improvement Act of 1996                  formal legal opinion from HUD’s Office of
     (FFMIA). In addition to this chapter on audit       General Counsel regarding whether HUD’s
     resolution, see appendix 3, table B, “Significant   cumulative technique for assessing compliance
     audit reports in which final action had not been    with commitment deadlines is consistent with
     completed within 12 months after the date of        and an allowable alternative to the 24-month
     the Inspector General’s report.”                    commitment required by 42 U.S.C. (United
                                                         States Code) 12748 and HUD’s first-in, first-out
                                                         (FIFO) method for assessing compliance with
     Audit Reports Issued Before                         HOME expenditure requirements is consistent
     Start of Period With No                             with and an allowable alternative to the 8-year
                                                         recapture deadline pursuant to Public Law 101-
     Management Decision as                              510, codified at 31 U.S.C. 1552.

     of September 30, 2012                               CPD obtained a legal opinion from the Assistant
                                                         General Counsel for Community Development
                                                         on March 5, 2010.  The legal opinion supports
     HUD Lacked Adequate                                 the Department’s use of the cumulative
     Controls To Ensure the Timely                       approach and FIFO accounting method. 
     Commitment and Expenditure                          Based on this legal opinion, CPD does not
                                                         plan to implement OIG’s recommendation to
     of HOME Funds, Issue                                discontinue use of the FIFO method to account
     Date: September 28, 2009                            for the commitment and expenditure of HOME
                                                         funds or the cumulative technique for assessing
     HUD OIG audited HUD’s HOME Investment               deadline compliance.
     Partnerships Program (HOME).  The OIG
     report included a recommendation that the           OIG requested reconsideration of the opinion. 
     HUD Office of Community Planning and                On June 10, 2010, HUD’s General Counsel and
     Development (CPD) establish and implement           Chief Financial Officer provided additional
     controls to ensure that field offices require       information regarding HUD’s recapture
     participating jurisdictions to close out future     requirements of the HOME program statute and
     HOME activities within a timeframe that will        CPD’s use of cumulative accounting and the
     permit reallocation and use of the funds for        FIFO method for financial management.



35                                     Chapter 9 - Audit Resolution
HUD explained that CPD’s use of cumulative          Since OIG’s last semiannual report date, in
accounting in its financial management              conjunction with its annual audit of HUD’s
represents a reasonable interpretation of the       financial statements, OIG has continued to
statutory duties imposed on the HUD Secretary       discuss the FIFO accounting method with the
and addresses the complex administrative            U.S. Government Accountability Office (GAO)
challenges inherent in managing the HOME            and is waiting for GAO to determine whether
Investment Trust.  HUD also explained               the FIFO accounting method violates Federal
that obligations and expenditures under the         standards for appropriation accounting and
HOME program are accounted for on a FIFO            whether the cumulative method is an acceptable
basis by fund type instead of by fiscal year        alternative to the statutory recapture provision. 
and that CPD, in enforcing the obligation           (Audit Report: 2009-AT-0001)
and expenditure requirements, looks to total
cumulative obligations and expenditures instead
of accounting for them by fiscal year.  Based on
the Chief Financial Officer’s financial analysis,
                                                    Significantly Revised
given the origin of these requirements and the      Management Decisions
fundamental nature of this block grant program,
HUD believed that the FIFO accounting               Section 5(a)(11) of the Inspector General
method for obligations and expenditures by fund     Act, as amended, requires that OIG report
type was consistent with Federal accounting         information concerning the reasons for any
requirements and had no objection to the            significant revised management decisions made
total cumulative obligations and expenditures       during the reporting period. During the current
methods used for assessing compliance with the      reporting period, there were significant revised
24-month commitment and 5-year expenditure          management decisions on four audits.
requirements.

OIG continues to disagree with CPD’s use of
                                                    HUD Lacked Adequate
the FIFO method for recognizing commitments         Controls Over the Physical
and expenditures that participating jurisdictions   Condition of Section 8 Voucher
make against their HOME appropriations and
maintains that CPD’s cumulative method for          Program Housing Stock,
determining recapture amounts is not consistent     Issue Date: May 14, 2008
with the requirement cited at 42 U.S.C. 12748
for recapturing funds not committed by statutory    HUD OIG audited HUD’s controls over the
deadline dates.  The FIFO accounting method         physical condition of Section 8 housing stock for
understates amounts due to be recaptured by         the Housing Choice Voucher program. OIG’s
the Treasury when appropriation accounts are        objective was to determine whether HUD had
canceled pursuant to 31 U.S.C. 1552. The            adequate controls to ensure that its Section 8
cumulative method potentially understates           housing stock was in material compliance with
recaptures that HUD makes pursuant to 42            housing quality standards.
U.S.C. 12748.
                                                    HUD did not have adequate controls to ensure
Another issue is whether HUD’s FIFO                 that its Section 8 housing stock was in material
accounting method complies with Federal             compliance with housing quality standards.
accounting requirements for maintaining the         This condition occurred because HUD had not
U.S. Standard General Ledger and general            fully implemented its Section 8 Management
appropriations law.  The accounting issues          Assessment Program (SEMAP).  As a result, it
require review for compliance with Federal          could not ensure that the primary mission of the
accounting standards and appropriation law.         Section 8 program, paying rental subsidies so




                                  Chapter 9 - Audit Resolution                                           36
     that eligible families can afford decent, safe, and   quality control inspections at up to 100 of the
     sanitary housing, was met. In addition, HUD’s         largest public housing agencies during 2013 and
     lack of knowledge regarding the condition of          complete follow-up and administrative action
     its Section 8 housing stock resulted in inflated      by October 31, 2014. (Audit Report: 2008-AT-
     performance ratings for public housing agencies       0003)
     administering the program. Consequently,
     HUD routinely rated some agencies as being            The City of East St. Louis Did
     high performers when a significant percentage
     of the units they administered were in material       Not Properly Allocate Salary and
     noncompliance with housing quality standards.         Building Expenses or Properly
     HUD was revising its Section 8 regulations.
     These revisions included developing a physical
                                                           Document Its Process To Secure
     inspection system to help ensure that HUD’s           a Consulting Services Contract,
     Section 8 housing stock is in material compliance     Issue Date: March 26, 2010
     with housing quality standards.
                                                           HUD OIG audited the City of East St. Louis’
     Our recommendations included completion
                                                           Community Development Block Grant (CDBG)
     of the departmental clearance process of the
                                                           program to determine whether the City
     proposed revised Section 8 regulations by the end
                                                           properly expended block grant funds for salaries
     of fiscal year (FY) 2008, allowing the proposed
                                                           and building expenses and followed proper
     revisions to SEMAP and housing quality
                                                           procurement processes while awarding significant
     standards to go through the proper process and
                                                           administration contracts. 
     carefully considering all questions and comments
     made by the affected parties (HUD Office
                                                           The City did not properly allocate salary and
     of Public and Indian Housing staff, tenants,
                                                           building expenses to the CDBG program.  It also
     landlords, Real Estate Assessment Center, HUD
                                                           did not properly document the cost estimate and
     OIG, etc.) before publishing the final rule, and
                                                           selection process used to procure a contract for
     fully developing and implementing a physical
                                                           developing its 5-year consolidated plan.
     inspection system for the tenant-based Housing
     Choice Voucher program within 3 years of the
                                                           Among other things, OIG recommended that
     issue date of this report.
                                                           HUD provide technical assistance to the City
                                                           to ensure that its management and staff comply
     In its original management decision, HUD
                                                           with Office of Management and Budget (OMB)
     agreed to publish the final rule and to develop
                                                           Circular A-87 requirements for rental costs.  In
     and implement a new physical inspection system
                                                           its original management decision, HUD agreed
     by October 31, 2010. Due to various delays,
                                                           to provide the City with technical assistance. 
     HUD requested and OIG agreed to extend
                                                           HUD submitted a revised management decision
     the target completion date to September 30,
                                                           because it had transferred full administrative
     2012. In September 2012, HUD revised its
                                                           responsibility for the grant program to St. Clair
     management decisions. HUD has embarked
                                                           County, IL, and the old recommendations
     on a major initiative to overhaul and improve
                                                           were no longer necessary.  Beginning in FY
     its information system through the Next
                                                           2012, the City has become a member of the St.
     Generation Management System and plans to
                                                           Clair County Urban County and will not have
     delay development and implementation of a
                                                           a CDBG program to administer.  On July 30,
     new SEMAP rule.  HUD recognizes that the lack
                                                           2012, OIG agreed with the revised significant
     of an independent assessment of the quality of
                                                           management decision.  (Audit Report:  2010-
     assisted units is a major flaw within SEMAP and
                                                           KC-1003)
     that HUD needs to take action to address this
                                                            
     concern. HUD intends to perform up to 10,000




37                                      Chapter 9 - Audit Resolution
The City of East St. Louis, IL, Did                  the revised significant management decision. 
                                                     (Audit Report:  2011-KC-1001)
Not Properly Manage Housing                           
Rehabilitation Contracts Funded                      The East St. Louis, IL, Housing
by the Community Development                         Authority Drew Capital
Block Grant Program, Issue                           Funds for Unsupported and
Date: February 9, 2011                               Ineligible Expenses, Issue
HUD OIG audited the City of East St. Louis’          Date: March 1, 2011
CDBG program to determine whether the City
properly managed its housing rehabilitation          HUD OIG audited the East St. Louis Housing
contracts.                                           Authority’s Public Housing Capital Fund
                                                     program to determine whether the Authority had
The City awarded more than $1 million in             proper support for its capital fund draws. 
grant funds for 124 of the 147 rehabilitation
contracts reviewed without adequately ensuring       The Authority drew down grant funds for
that it complied with requirements and that the      ineligible items and without adequate support.
work was completed in an acceptable manner.          Specifically, it made unsupported draws,
Specifically, it did not ensure that contractors     excessive administration draws, draws for force
completed all of the contracted work as required     account labor without prior approval, draws
and at a reasonable cost.  Additionally, the City    above the invoiced amount, and duplicate
created scopes of work for the rehabilitation        draws.  As a result, HUD had no assurance that
contracts that were not detailed and specific        nearly $172,000 in capital funds was properly
in nature.  Finally, it did not comply with          spent.
Federal procurement requirements and its own
policies and procedures when it managed the          Among other things, OIG recommended that
rehabilitation contracts.                            HUD require the Authority to provide support
                                                     for nearly $91,000 drawn for unsupported
Among other things, OIG recommended                  costs or return the funds to HUD.  OIG also
that HUD require the City to obtain detailed         recommended that the Authority return more
inspection reports with pictures of completed        than $81,000 in ineligible draws to HUD.  In
repairs to ensure that all work items are properly   its original management decision, HUD
completed according to the approved scopes           agreed to review documentation submitted by
of work before the contractors are paid.  OIG        the Authority and require repayment to the
also recommended that the City develop and           project from non-Federal funds for the amount
implement a postrepair quality control process       that could not be supported.  HUD recently
to ensure that work is completed according to        submitted a revised management decision
the scope.  In its original management decision,     because it had completed its review of the
HUD agreed to require the City to implement          documentation and determined the amount
adequate internal controls.  HUD submitted           of repayment remaining.  It planned to enter
a revised management decision because it had         into a 10-year repayment agreement with the
transferred full administrative responsibility       Authority totaling more than $31,000.  On July
for the grant program to St. Clair County, IL,       13, 2012, OIG agreed with the revised significant
and the old recommendations were no longer           management decision.  (Audit Report:  2011-
necessary.  Beginning in FY 2012, the City has       KC-1002) 
become a member of the St. Clair County Urban
County and will not have a CDBG program to
administer. On July 30, 2012, OIG agreed with



                                  Chapter 9 - Audit Resolution                                           38
     Significant Management                              On March 25, 2011, HUD’s Deputy Assistant
                                                         Secretary for Public Housing Investments
     Decision With Which                                 proposed and OIG concurred with HUD,
                                                         requesting a formal legal opinion for a
     OIG Disagrees
                                                         •	 Determination of whether the Authority
     During the reporting period, there was one report      could enter into a contract for the
     in which the OIG disagreed with the significant        encapsulating paint for nearly $192,000 and
     management decision.                                   determining whether any funds should be
                                                            recaptured (recommendation 1A).
     The Housing Authority of the City
                                                         •	 Determination of whether the Authority’s
     of Shreveport, LA, Mismanaged Its                      submission of a revised budget
     Recovery Act Funds by Entering                         constituted an amendment to its public
     Into Imprudent Contracts To                            housing authority plan and determining
                                                            whether any funds should be recaptured
     Meet the Obligation Deadline,                          (recommendation 1B).
     Issue date: October 14, 2010
                                                         HUD and OIG agreed on the management
     HUD OIG audited the Housing Authority of            decision that HUD would deposit any
     the City of Shreveport as part of its annual        recaptured funds pursuant to the outcomes of
     audit plan to review American Recovery and          recommendations 1A and 1B with the Treasury
     Reinvestment Act of 2009 (ARRA) funds. The          for deficit reduction in accordance with ARRA as
     audit objective was to determine whether            amended (recommendation 1E).
     obligations the Authority made between January
     30 and March 17, 2010, were appropriate,            HUD obtained a legal opinion from the Assistant
     prudent, eligible, and supported and whether        General Counsel on February 7, 2012. HUD
     procurements were made in accordance with           requested closure of the three recommendations
     requirements.                                       based upon the legal opinion.

     The Authority mismanaged more than $1.5             The legal opinion required HUD to obtain
     million in ARRA funding by entering into            from the Authority an independent cost
     imprudent contracts to meet the March 17,           estimate and the Authority to submit to HUD a
     2010, obligation deadline. In addition, it could    noncompetitive procurement exception request
     not provide assurance that it properly awarded      to resolve recommendation 1A. Because the
     the contracts.                                      legal opinion required additional action by HUD,
                                                         on May 22, 2012, HUD submitted a revised
     Working with the New Orleans field office, OIG      management decision for recommendation 1A to
     obtained management decisions for three of the      include obtaining this information and approving
     six recommendations. However, OIG could not         the noncompetitive procurement request.
     resolve the remaining three recommendations         On September 12, 2012, HUD’s Assistant
     and referred the recommendations to HUD’s           Secretary for Public and Indian Housing granted
     Deputy Assistant Secretary for Public Housing       the Authority’s request for an exception to
     Investments in accordance with requirements to      procurement requirements. OIG disagreed with
     aid in the resolution.                              the result of the revised management decision.

                                                         While OIG acknowledged that HUD could
                                                         provide this procurement exception, OIG
                                                         continues to disagree that the Authority




39                                     Chapter 9 - Audit Resolution
showed sufficient justification for its failure
to comply with procurement requirements or
                                                       Federal Financial
that an exception was warranted. OIG did not           Management Improvement
agree with the Authority’s determination that
competitive methods of procurement were                Act of 1996
infeasible, since it competitively solicited bidders
and received multiple bidders. Likewise, OIG           In FY 2012, HUD did not substantially comply
disagreed that the Authority’s inability to select     with FFMIA.  In this regard, HUD’s financial
activities to undertake and competitively procure      management systems did not substantially
those activities in a timely manner warranted          comply with Federal financial management
an exception to procurement requirements.              system requirements.
Further, OIG questioned the prudence
of granting an exception to procurement                During FY 2012, HUD made limited progress
requirements more than 2 years after the               in bringing the Federal financial management
procurement took place.                                systems into compliance with FFMIA.  However,
                                                       HUD’s financial management systems continued
With respect to recommendation 1B, the legal           to not meet current requirements.  HUD’s
opinion concluded that the Authority did not           systems were not operated in an integrated
consider the 450 percent budget increase and           fashion and linked electronically to efficiently
reallocating more than $1.2 million from the           and effectively provide the agencywide financial
Authority’s scattered sites to its Wilkinson           system support necessary to carry out the
Terrace Apartments as significant and that the         agency’s mission and support the agency’s
Authority’s actions complied with applicable           financial management needs.
requirements.
                                                       HUD’s financial systems, many of which were
OIG disagreed with this determination                  developed and implemented before the issue
and maintained that the budget increase                date of current standards, were not designed to
and reallocation of resources were material            provide the range of financial and performance
and, therefore, significant, which triggered           data currently required.  The modernization
requirements that the Authority failed to              project, HUD’s Integrated Financial
meet, including obtaining board approval and           Management Improvement Project, was
public notification. The Authority’s 2008              launched in FY 2003 but has been plagued by
5-year plan, which was in effect at the time of        delays.  Originally planned for implementation in
the 450 percent budget increase, did not have          2006, the contract for the Project was awarded on
a definition of what constituted a significant         September 23, 2010.  The 10-year contract plan
amendment as required. After issuance of               was established based on the implementation
the OIG audit report, the Authority provided           Project start date and current schedule. With
HUD its 2010 5-year plan, which included a             the award of the contract, HUD anticipated
definition of a significant amendment. The             implementation of phase I of the Project in time
Office of General Counsel incorrectly based            to have all of the fiscal year 2012 financial data
its opinion on the 2010 plan rather than the           within the new system.  During fiscal year 2012,
2008 plan. Further, OIG could not agree with           HUD convened an independent government
the determination that the facts as cited in the       assessment team, composed of several subject-
report were insignificant. (Audit Report: 2011-        matter experts from multiple government
FW-1001)                                               agencies, to rapidly evaluate the status of the
                                                       Project. HUD has renamed the Project the HUD
                                                       Enterprise-wide Financial Management Project.    




                                    Chapter 9 - Audit Resolution                                            40
     As of September 30, 2012, HUD does not have            systems requirements, HUD did not perform
     an operational new core financial system. Base         independent reviews of all of its financial
     period performance goals and objectives were           management systems in accordance with
     not met, and in March 2012, the Project was            OMB Circular A-127.  Collectively and in the
     stopped, and HUD began reevaluating its                aggregate, deficiencies continued to exist.
     options for the Project. Sponsorship of the
     Project has been transferred from the Office of
     the Chief Financial Officer (OCFO) to the HUD
     Deputy Secretary. The Deputy Secretary and a
     working group comprised of OCFO, the Office
     of the Chief Information Officer, and the Office
     of the Chief Procurement Officer are reassessing
     HUD’s options for the Project.

     OIG remains concerned about the successful
     execution and completion of the Project.  In
     addition, OIG remains concerned that
     completion of the Project will not result in a
     truly integrated core financial system.  As HUD
     assesses the future of the Project, it is clear that
     it is in jeopardy and that additional time and
     funding will be needed.

     FFMIA requires OIG to report in its Semiannual
     Reports to the Congress instances and reasons
     when an agency has not met the intermediate
     target dates established in its mediation plan
     required by FFMIA.  At the end of 2012, HUD
     reported that 3 of the 39 financial management
     systems were not in substantial compliance
     with FFMIA.  These three systems are the
     HUD Procurement System (HPS), Small
     Purchase System (SPS), and Facilities Integrated
     Resources Management System.  HUD acquired
     a new application, the HUD Integrated
     Acquisition Management System (HIAMS), to
     replace HPS and SPS on September 30, 2010.
     The HIAMS application went live on October
     1, 2011. The HIAMS implementation used
     a phased approach; therefore, HPS and SPS
     were still operational and used during FY 2012.
     HUD plans to decommission HPS and SPS in
     the first quarter of 2013. Additionally, OIG
     determined that the Integrated Disbursement
     and Information System (IDIS) was not in
     substantial compliance with FFMIA. However,
     HUD continues to report IDIS as compliant.
     Although HUD certified 36 individual systems
     as compliant with Federal financial management




41                                        Chapter 9 - Audit Resolution
                                        Appendix 1
                                    Peer Review Reporting


Office of Audit                                        Peer Review Conducted by
                                                       HUD OIG on USDA
Background
                                                       The U.S. Department of Agriculture (USDA)
The Dodd-Frank Wall Street Reform and                  OIG received a rating of pass on the peer review
Consumer Protection Act (Public Law No. 111-           report issued by HUD OIG on September 30,
203), section 989C, requires inspectors general        2009.  The System Review Report contained no
to report the latest peer review results in their      findings or recommendations. 
semiannual reports to Congress. The purpose
in doing so is to enhance transparency within
the government. Both the Office of Audit and
                                                       Office of Investigation
Office of Investigation are required to undergo
a peer review of their individual organizations        Peer Review Conducted
every 3 years. The purpose of the review is to         on HUD OIG
ensure that the work completed by the respective
organizations meets the applicable requirements        The most recent peer review of the Office of
and standards. The following is a summary of           Investigation was conducted in 2011 by the U.S.
the status of the latest round of peer reviews for     Department of Health and Human Services
the organization.                                      OIG. The results of the peer review found HUD
                                                       OIG compliant (the highest rating) with the
Peer Review Conducted                                  quality of standards established by the inspector
                                                       general community and the attorney general
on HUD OIG                                             guidelines.
The U.S. Department of Housing and Urban
Development, Office of Inspector General
(HUD OIG), received a grade of pass (the
highest rating) on the peer review report issued
by U.S. Department of Education Inspector
General on September 28, 2012.  There were
no recommendations included in the System
Review Report. The report stated:

In our opinion, the system of quality control in
effect for the year ended March 31, 2012, for the
audit organization of the HUD OIG has been
suitably designed and complied with to provide
the HUD OIG with reasonable assurance of
performing and reporting in conformity with
applicable professional standards in all material
respects. Federal audit organizations can receive a
rating of pass, pass with deficiencies, or fail. The
HUD OIG has received a peer review rating of
pass.




                               Appendix 1 - Peer Review Reporting                                          42
                                         Appendix 2
                                      Audit Reports Issued


     Internal Reports
     Audit Reports

     Chief Financial Officer
     2012-FO-0006              HUD’s Oversight of Recovery Act-Funded Housing Programs, 09/27/2012.
                               Better use: $9,518,991.

      Chief Information Officer
     2012-DP-0004           Security Implemented on HUD’s IBM Mainframe Lacked Some
                            Configuration and Technical Controls, 08/24/2012.

     2012-DP-0005              Review of Controls Over HUD’s Mobile Devices, 09/28/2012.

      Housing
     2012-CH-0001              HUD's Oversight of Lenders' Underwriting of FHA-Insured Loans Was
                               Generally Adequate, 08/17/2012. Questioned: $280,107; Unsupported:
                               $280,107.

     2012-KC-0001              HUD Generally Established Controls Over the Section 242 Program but
                               Used an Outdated Handbook, and Its Guidance Had Not Been Cleared
                               Through HUD’s Directives System, 04/10/2012.

     2012-KC-0004              FHA Paid Claims for Approximately 11,693 Preforeclosure Sales that Did
                               Not Meet FHA Requirements, 09/18/2012. Questioned: $360,760; Better
                               use: $781,642,944.

     2012-LA-0003              HUD Did Not Always Enforce REO M&M III Program Requirements,
                               09/18/2012. Questioned: $491,946; Better use: $1,045,730.

      Office of Chief Human Capital Officer
     2012-KC-0002          HUD Did Not Implement Adequate Policies and Procedures for Sanitizing
                           Media in Its Multifunction Devices, 05/03/2012.

      Public and Indian Housing
     2012-AT-0001           The Section Eight Management Assessment Program Lacked Adequate
                            Controls To Accomplish Its Objective, 08/03/2012.

     2012-KC-0003              HUD Did Not Effectively Oversee and Manage the Receivership of the
                               East St. Louis Housing Authority, 09/05/2012.




43                                 Appendix 2 - Audit Reports Issued
 Internal Reports
 Audit Reports

 2012-KC-0005                   HUD’s Real Estate Assessment Center Did Not Always Ensure That
                                Independent Public Accountants Followed Statement on Auditing
                                Standards (SAS) 99 Requirements, 09/28/2012.

 2012-LA-0004                   HUD Did Not Ensure Public Housing Agencies’ Use of Property Insurance
                                Recoveries Met Program Requirements, 09/21/2012.

 2012-LA-0005                   HUD’s Office of Native American Programs Did Not Provide Adequate
                                Oversight To Ensure Grantee Compliance With Annual Audit Report
                                Submission Requirements, 09/28/2012.



 Audit-Related Memorandums10
     Chief Financial Officer
 2012-IE-0801                    HUD's Conference Spending, 08/06/2012.


     Community Planning and Development
 2012-CH-0801                    HUD's Office of Community Planning and Development Needs To
                                 Improve Its Tracking of HOME Investment Partnerships Program
                                 Technical Assistance Activities, 09/28/2012.

 2012-NY-0802                    Corrective Action Verification, City of Newburgh, NY, Section 108 Loan
                                 Guarantee Program, Audit Report 2009-NY-1001, 09/21/2012.


 Housing
 2012-NY-0801                    Corrective Action Verification, Office of Single Family
                                 Program Development, Housing Counseling Assistance
                                 Program, Audit Report 2006-NY-0001, 05/08/2012.

10




10
  The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, or to report the results of civil actions or settlements.




                                      Appendix 2 - Audit Reports Issued                                                     44
     External Reports
     Audit Reports
     Community Planning and Development
     2012-AT-1009        The Municipality of Bayamón Did Not Always Ensure Compliance With
                         HOME Investment Partnerships Program Requirements, Bayamon, PR,
                         05/23/2012. Questioned: $4,040,662; Unsupported: $4,039,462; Better use:
                         $1,300,878.

     2012-AT-1010        The Alabama Department of Economic and Community Affairs Did
                         Not Follow Its NSP Requirements, Montgomery, AL, 05/24/2012.
                         Questioned: $8,540; Unsupported: $8,540; Better use: $304,043.

     2012-AT-1015        Little Haiti Did Not Fully Comply With Federal Rules
                         When Administering NSP2, Miami, FL, 09/06/2012.
                         Questioned: $55,052; Better use: $31,257.

     2012-FW-1011        The City of Houston Could Have Better Used Its CDBG Disaster Recovery
                         Downpayment Assistance Funds, Houston, TX, 07/19/2012.

     2012-FW-1013        The Texas Department of Housing and Community Affairs Did Not
                         Always Comply with NSP Requirements, Austin, TX, 08/22/2012.
                         Questioned: $25,346,773; Unsupported: $25,304,591.

     2012-FW-1014        The State of Louisiana Generally Complied With Recovery Act HPRP,
                         Baton Rouge, LA, 09/07/2012. Questioned: $41,764; Unsupported:
                         $41,764.

     2012-KC-1006        The City of St. Louis Did Not Effectively Manage Its Recovery
                         Act Funding, St. Louis, MO, 09/27/2012. Questioned: $1,369,308;
                         Unsupported: $1,369,308.

     2012-LA-1007        Los Angeles Neighborhood Housing Services Did Not Always Properly
                         Administer Its NSP2 Grant, Los Angeles, CA, 06/05/2012. Questioned:
                         $45,625; Unsupported: $30,000.

     2012-LA-1008        The City of Phoenix Did Not Always Comply With Program Requirements
                         When Administering Its NSP1 and NSP2 Grants, Phoenix, AZ,
                         06/15/2012. Questioned: $6,688,248; Unsupported: $6,156,905.

     2012-LA-1012        The City of Long Beach Did Not Fully Comply With Federal Regulations
                         When Administering Its NSP2 Grant, Long Beach, CA, 09/21/2012.
                         Questioned: $84,110.




45                           Appendix 2 - Audit Reports Issued
External Reports
Audit Reports
2012-NY-1009    The City Newark Generally Obligated and Expended NSP1 Funds in
                Accordance With Regulations, but Had Weaknesses in Administrative
                Controls, Newark, NJ, 07/20/2012. Questioned: $60,525; Unsupported:
                $49,275; Better use: $123,193.

2012-NY-1010    The Lower Manhattan Development Corporation Approved Invoices That
                Were Not Always Consistent With Subrecipient Agreements, New York,
                NY, 07/27/2012. Questioned: $159,261; Unsupported: $34,485; Better use:
                $2,258.

2012-NY-1011    The City of Elizabeth Did Not Always Administer Its CDBG Program in
                Accordance With Regulations, Elizabeth, NJ, 08/15/2012. Questioned:  
                $856,805; Unsupported: $457,712; Better use: $4,812,195.

2012-PH-1009    The City of Philadelphia Generally Administered Its NSP2 Grant in
                Accordance With Applicable Requirements, Philadelphia, PA, 06/21/2012.

2012-PH-1011    Prince George’s County Generally Did Not Administer Its HOME Program
                in Accordance With Federal Requirements, Largo, MD, 08/03/2012.
                Questioned: $3,797,139; Unsupported: $1,385,545; Better use:
                $4,733,357.

2012-SE-1003    Washington State Generally Complied With HOME Program
                Requirements; However, It Did Not Always Verify Project Accessibility or
                Report Accurate Matching Contributions, Olympia, WA, 05/09/2012.

2012-SE-1004    The City of Seattle Used Its CDBG-R Funds in Accordance With HUD
                and Recovery Act Requirements, Seattle, WA, 06/25/2012.

Housing
2012-AT-1011    Nationwide Mortgage & Associates, Inc., Did Not Follow HUD
                Requirements in Approving FHA Loans and Implementing Its Quality
                Control Program, Fort Lauderdale, FL, 05/31/2012. Better use: $378,858.

2012-AT-1013    Universal American Mortgage Company Did Not Comply With HUD
                Regulations When Originating and Underwriting FHA Loans and
                Implementing Its Quality Control Program, Miami, FL, 06/06/2012. Better
                use: $284,776.




                    Appendix 2 - Audit Reports Issued                                      46
     External Reports
     Audit Reports
     2012-AT-1014    The Owner of the West Village Expansion Project Failed To Comply
                     With Its Regulatory Agreement With HUD, Durham, NC, 07/27/2012.
                     Questioned: $1,333,657.

     2012-CH-1008    Nations Lending Corporation Needs To Improve Its Quality Control
                     Reviews of Early Payment Defaulted Loans, Independence, OH,
                     06/01/2012.

     2012-CH-1014    Mortgage Now Inc. Did Not Always Comply With HUD’s Underwriting
                     and Quality Control Requirements, Shrewsbury, NJ, 09/28/2012. Better
                     use: $555,678.

     2012-CH-1015    Allen Mortgage, LLC, Did Not Comply With HUD Requirements for
                     Underwriting FHA Loans and Fully Implement Its Quality Control
                     Program in Accordance With HUD's Requirement, Centennial Park, AZ,
                     09/30/2012. Questioned: $1,067,119; Unsupported: $199,361; Better use:
                     $1,000,042.

     2012-DE-1005    A Hotline Complaint About Utah Housing Corporation Mortgage
                     Servicing Was Not Substantiated, West Valley City, UT, 09/27/2012.

     2012-FW-1007    SWBC Mortgage Corporation Did Not Follow HUD-FHA Underwriting
                     Requirements in 1 and Had Minor Deficiencies in 3 of 10 Single-Family
                     Loans, San Antonio, TX, 05/15/2012. Better use: $115,654.

     2012-FW-1012    Weststar Mortgage Corporation Did Not Comply With HUD FHA
                     Single Family Requirements for 10 Loans Reviewed, Albuquerque, NM,
                     08/02/2012. Questioned: $554,130.

     2012-LA-1006    Amar Plaza Was Not Administered in Accordance With HUD Rules
                     and Regulations, La Puente, CA, 05/21/2012. Questioned: $192,808;
                     Unsupported: $142,369; Better use: $274,587.

     2012-LA-1010    Innotion Enterprises, Inc., Did Not Always Comply With Its REO
                     Contract Requirements, Las Vegas, NV, 09/12/2012. Questioned: $11,210;
                     Better use: $1,035,780.

     2012-LA-1011    Bankers Mortgage Group Loan Originations Did Not Comply With
                     FHA-Insured Loan Documentation Requirements, Woodland Hills, CA,
                     09/13/2012. Questioned: $58,704; Better use: $1,521,014.




47                       Appendix 2 - Audit Reports Issued
External Reports
Audit Reports
2012-PH-1010          The National Foundation for Credit Counseling Generally Met HUD
                      Requirements But Did Not Always Ensure That Home Equity Conversion
                      Mortgage Counseling Requirements Were Met, Washington, DC,
                      07/31/2012. Questioned: $76,146; Unsupported: $29,296.

2012-SE-1006          Gruening Park Apartments, Did Not Always Comply With HUD Rules and
                      Regulations, Juneau, AK, 09/05/2012. Questioned: $7,025.

Lead Hazard Control
2012-SE-1005          Washington State Generally Complied With Lead Hazard Control Grant
                      and Recovery Act Requirements but Charged Excessive Administrative
                      Costs, Olympia, WA, 08/09/2012. Questioned: $202,824.

Public and Indian Housing
2012-AO-1002          The Jefferson Parish Housing Authority Violated Federal Regulations,
                      Marrero, LA, 07/30/2012. Questioned: $655,907; Unsupported: $453,793.

2012-AT-1012          The Housing Authority of the City of Hickory Mismanaged Some
                      of Its HUD Funds, Hickory, NC, 06/01/2012. Questioned: $611,640;
                      Unsupported: $80,634.

2012-BO-1004          The Lawrence Housing Authority Did Not Obtain HUD Approval to
                      Fund a Trust Account and Had Weaknesses in Its Controls, Boston, MA,
                      07/31/2012. Questioned: $2,510,174; Unsupported: $2,510,174.

2012-BO-1005          Housing Choice Voucher Program Units Did Not Meet HUD’s Housing
                      Quality Standards, and Authority Officials Did Not Always Comply with
                      HUD’s or Their Own Procurement Policy, Augusta, ME, 09/28/2012.  
                      Questioned: $306,698; Unsupported: $111,742.

2012-CH-1009          The Hammond Housing Authority Did Not Administer Its Recovery
                      Act Grants in Accordance With Recovery Act, HUD’s, and Its Own
                      Requirements, Hammond, IN, 08/03/2012. Questioned: $282,674;
                      Unsupported: $281,049; Better use: $7,000.

2012-CH-1010          The Aurora Housing Authority Did Not Administer Its Grant in
                      Accordance With Recovery Act, HUD, and Its Own Requirements, Aurora,
                      IL, 09/05/2012. Questioned: $345,838; Unsupported: $343,438; Better
                      use: $919.




                            Appendix 2 - Audit Reports Issued                                 48
     External Reports
     Audit Reports
     2012-CH-1011    The Stark Metropolitan Housing Authority Did Not Always Administer
                     Its Grant in Accordance With Recovery Act, HUD’s, and Its Own
                     Requirements, Canton, OH, 09/27/2012. Questioned: $7,500;
                     Unsupported: $6,820; Better use: $537.

     2012-CH-1012    The Saginaw Housing Commission Did Not Always Administer Its Section
                     8 Housing Choice Voucher program in Accordance With HUD’s and Its
                     Own Requirements, Saginaw, MI, 09/27/2012. Questioned: $845,253;
                     Unsupported: $812,054; Better use: $177,705.

     2012-CH-1013    The Flint Housing Commission Did Not Always Administer Its Grants in
                     Accordance With Recovery Act, HUD’s, and Its Own Requirements, Flint,
                     MI, 09/27/2012. Questioned: $3,120,000.

     2012-DE-1004    The Aurora Housing Authority Did Not Always Follow Requirements
                     When Obligating, Expending, and Reporting Information About Its
                     Recovery Act Capital Funds, Aurora, CO, 05/04/2012. Questioned:
                     $228,395; Unsupported: $206,377.

     2012-FW-1008    The Management and Board of Commissioners of the Housing
                     Authority of the City of Port Arthur Failed To Exercise Their Fiduciary
                     Responsibilities, Port Arthur, TX, 06/01/2012. Questioned: $5,920,931;
                     Unsupported: $5,458,657; Better use: $59,191.

     2012-FW-1009    The Gonzales Housing Authority Generally Followed Recovery Act
                     Public Housing Capital Fund Requirements, Gonzales, TX, 06/18/2012.
                     Questioned: $7,600.

     2012-FW-1010    The Housing Authority of the City of Mineral Wells Had Errors in the
                     Administration of Its Recovery Act Public Housing Capital Fund Grant,
                     Mineral Wells, TX, 06/29/2012. Questioned: $14,145.

     2012-KC-1003    The Topeka Housing Authority Did Not Always Document Its
                     Procurement Actions and Did Not Accurately Report on Its Recovery Act
                     Funds, Topeka, KS, 04/05/2012.

     2012-KC-1004    The Manhattan Housing Authority Improperly Executed a Contract
                     Change Order and Did Not Accurately Report on Its Recovery Act Funds,
                     Manhattan, KS, 04/09/2012. Questioned: $10,349; Unsupported: $10,349.




49                       Appendix 2 - Audit Reports Issued
 External Reports
 Audit Reports
 2012-KC-1005                    The Wichita Housing Authority Did Not Always Properly Administer Its
                                 Housing Choice Voucher Program, Wichita, KS, 09/19/2012. Questioned:
                                 $67,269.

 2012-LA-1009                    Most Allegations Against the Oakland Housing Authority Related to
                                 Housing Quality Standards Inspection Services, Were Generally Not Valid,
                                 Oakland, CA, 08/03/2012. Questioned: $28,508.

 2012-NY-1008                    Transactions Between the Housing Authority of the City of Perth
                                 Amboy and its Nonprofit Subsidiary Did Not Always Comply With
                                 HUD Regulations, Perth Amboy, NJ, 06/01/2012. Questioned: $156,250;
                                 Unsupported: $156,250; Better use: $286,782.

 2012-NY-1012                    The Buffalo Municipal Housing Authority Public Housing Capital Fund
                                 Stimulus (Formula) Recovery Act Program, Buffalo, NY, 09/12/2012.
                                 Questioned: $9,872,405; Unsupported: $9,761,591.

 2012-PH-1012                    The Allegheny County Housing Authority, Needs To Improve Its
                                 Inspections To Ensure That All Section 8 Housing Choice Voucher Units
                                 Meet Housing Quality Standards, Pittsburgh, PA, 09/21/2012. Questioned:
                                 $15,070; Better use: $5,163,804.

11




 Audit-Related Memorandums11
     Community Planning and Development

 2012-FW-1803                    Corrective Action Verification, City of Tulsa – CDBG, Land Use and
                                 Program Income, Audit Report 2008-FW-1012, Tulsa, OK, 04/10/2012.
                                 Questioned: $2,048,750; Unsupported: $2,048,750; Better use: $42,000.

 2012-FW-1804                    The City of San Antonio, TX, Did Not Administer Its NSP Grant in
                                 Accordance With Requirements, San Antonio, TX, 08/06/2012.




11
  The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, or to report the results of civil actions or settlements.




                                      Appendix 2 - Audit Reports Issued                                                     50
     2012-NY-1802      Village of Spring Valley, Hotline Complaint, Federal Housing Finance
                       Agency Complaint Number Z-12-0445-1, Village of Spring Valley, NY,
                       09/28/2012. Questioned: $927,438; Unsupported: $102,438.

     General Counsel

     2012-CF-1805      Final Civil Action - Alleged Violations of the Financial
                       Institutions Reform, Recovery, and Enforcement Act of
                       1989, Pasadena, CA, 06/05/2012. Better use: $50,000.

     2012-CF-1806      Final Civil Action - Alleged Violations of the Financial
                       Institutions Reform, Recovery, and Enforcement Act of
                       1989, Pasadena, CA, 06/05/2012. Better use: $50,000.

     2012-CF-1807      Final Civil Action - Alleged Violations of the Financial
                       Institutions Reform, Recovery, and Enforcement Act of
                       1989, Pasadena, CA, 06/05/2012. Better use: $50,000.

     2012-CF-1808      Final Civil Action: Occupancy Status Violation – FHA Streamline
                       Finance, West Bend, WI, 06/05/2012. Questioned: $6,250.

     2012-CF-1809      Final Civil Action: Bank of America Settled Alleged Violations
                       of the False Claims Act by Countrywide Home Loans, Inc.,
                       Charlotte, NC, 06/12/2012. Questioned: $470,813,750.

     2012-CF-1810      Final Civil Action: Flagstar Bank, FSB, Settled False Claims Act
                       Allegations of Submitting False Certifications to HUD on FHA
                       Loans, Troy, MI, 06/27/2012. Questioned: $14,550,000.

     2012-CF-1811      Final Civil Action: Deutsche Bank Settled Alleged Violations
                       of the False Claims Act by MortgageIT, Inc., New York,
                       NY, 07/23/2012. Questioned: $196,231,000.

     2012-CF-1812      Final Civil Action: Default Judgment Issued Against Section
                       8 Landlord for Fraudulently Claiming Housing Assistance
                       Payments, Orlando, FL, 09/24/2012. Better use: $137,936.

     2012-CF-1813      Final Civil Action: Settlement of Alleged Violations of the
                       Financial Institutions Reform, Recovery, and Enforcement Act of
                       1989, Seal Beach, CA, 09/24/2012. Better use: $5,000,000.

     2012-CF-1814      Final Civil Action: CitiMortgage, Inc., Settled Allegations
                       of Failing To Fully Comply With HUD-FHA Requirements
                       and Submitting False Certifications to HUD on FHA Loans,
                       O'Fallon, MO, 09/25/2012. Questioned: $122,840,800.




51                         Appendix 2 - Audit Reports Issued
2012-FW-1805          Final Civil Action: Bartlesville Health Care Center, Inc., Owners
                      and Lender Settled Alleged Violations of the False Claims Act,
                      Bartlesville, OK, 08/24/2012. Questioned: $2,644,089.

Housing

2012-CH-1803          A Summary of the Foreclosure and Claims Process Reviews for Five
                      Mortgage Servicers That Engaged in Improper Foreclosure Practices,
                      Washington, DC, 09/28/2012. Questioned: $315,250,829.

2012-LA-1801          Shea Mortgage, Inc., Allowed the Recording of Prohibited
                      Restrictive Covenants, Aliso Viejo, CA, 09/26/2012. Questioned:
                      $4,034,448; Unsupported: $2,566,837; Better use: $5,092,201.

Public and Indian Housing
2012-NY-1801          New York City Housing Authority Hotline Complaint, Case
                      Number HL-2011-0705, New York, NY, 05/17/2012.




                            Appendix 2 - Audit Reports Issued                              52
                                         Appendix 3
                                                     Tables


     Table A
                    Audit reports issued before the start of period with
                    no management decision as of September 30, 2012
                           *Significant audit reports described in previous semiannual reports


                                                        Reason for lack of
     Report number and title                                                                Issue date
                                                        management decision

     * 2009-AT-0001 HUD Lacked Adequate       See chapter 9, page 36.                       09/28/2009
     Controls to Ensure the Timely Commitment
     and Expenditure of HOME funds



     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                                          Decision       Final
     Report number Report title                                           Issue date
                                                                                          date           action
     2002-AT-1002    Housing Authority of the City                       07/03/2002 10/31/2002           07/01/2015
                     of Tupelo, Housing Programs
                     Operations, Tupelo, MS

     2002-KC-0002    Nationwide Survey of HUD's                          07/31/2002 11/22/2002           Note 1
                     Office of Housing Section 232
                     Nursing Home Program

     2005-AT-1004    Housing Authority of the                            11/19/2004 03/15/2005           03/15/2015
                     City of Durham, NC

     2005-AT-1013    Corporacion Para el Fomento Economico 09/15/2005 01/11/2006                         Note 1
                     de la Ciudad Capital Did Not Administer
                     Its Independent Capital Fund in
                     Accordance With HUD Requirements,
                     San Juan, PR

     2006-KC-1013    The Columbus Housing Authority         06/30/2008 10/17/2006                        11/30/2012
                     Improperly Expended and Encumbered
                     Its Public Housing Funds, Columbus, NE




53                                           Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                      Decision   Final
Report number Report title                               Issue date
                                                                      date       action
2006-DP-0802   Assessment of HUD’s Compliance            09/21/2006 11/24/2006   09/30/2014
               With OMB Memorandum M-06-
               16, “Protection of Sensitive Agency
               Information”

2007-KC-0002   HUD Can Improve Its Use of                01/29/2007 01/29/2007   Note 1
               Residual Receipts To Reduce
               Housing Assistance Payments

2007-KC-0003   HUD Did Not Recapture Excess Funds        04/30/2007 08/27/2007   Note 1
               from Assigned Bond-Financed Projects

2007-SE-0001   HUD's Oversight of the Section            06/07/2007 10/05/2007   Note 1
               8 Project-Based Contract

2007-AT-1010   The Cathedral Foundation of               08/14/2007 12/03/2007   05/10/2017
               Jacksonville Used More Than $2.65
               Million in Project Funds for Questioned
               Costs, Jacksonville, FL

2007-KC-0801   Lenders Submitted Title II                09/24/2007 03/11/2008   Note 1
               Manufactured Housing Loans for
               Endorsement Without the Required
               Foundation Certifications

2008-LA-0001   The Los Angeles Multifamily Hub Did       11/05/2007 03/03/2008   Note 1
               Not Properly Monitor Its Performance-
               Based Contract Administrator, Los
               Angeles LOMOD

2008-LA-1003   Home for Life Foundation Did Not          12/18/2007 02/26/2008   04/01/2013
               Properly Administer Its Supportive
               Housing Program Grants, Los Angeles,
               CA




                                   Appendix 3 - Tables                                        54
     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                       Decision    Final
     Report number Report title                           Issue date
                                                                       date        action
     2008-AO-1002   State of Louisiana, Road Home Program, 01/30/2008 05/12/2008   Note 1
                    Funded 418 Grants Coded Ineligible or
                    Lacking an Eligibility Determination,
                    Baton Rouge, LA

     2008-AT-0003   HUD Lacked Adequate Controls Over     05/14/2008 09/10/2008    Note 2
                    the Physical Condition of Section 8
                    Voucher Program Housing Stock

     2008-DP-0004   Review of Selected FHA Major          06/12/2008 10/08/2008    Note 2
                    Applications’ Information Security
                    Controls

     2008-LA-1012   The Housing Authority of the City     07/01/2008 10/14/2008    12/31/2013
                    of Calexico Did Not Comply With
                    Public Housing Program Rules
                    and Regulations, Calexico, CA

     2009-AO-1001   State of Louisiana, Road Home         05/05/2009 09/16/2009    Note 1
                    Program, Did Not Ensure That Road
                    Home Employees Were Eligible To
                    Receive Additional Compensation
                    Grants, Baton Rouge, LA

     2009-AO-1002   State of Louisiana, Road Home         05/05/2009 09/16/2009    Note 1
                    Program, Did Not Ensure That
                    Multiple Disbursements to a Single
                    Damaged Residence Address Were
                    Eligible, Baton Rouge, LA

     2009-CH-1008   The City of East Cleveland Did        05/11/2009 09/08/2009    07/31/2014
                    Not Adequately Manage Its HOME
                    Investment Partnerships and CDBG
                    Programs, East Cleveland, OH




55                                      Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                      Decision   Final
Report number Report title                               Issue date
                                                                      date       action
2009-NY-1012   The City of Rome Did Not Administer       05/20/2009 09/23/2009   01/30/2032
               Its Economic Development
               Activity in Accordance With HUD
               Requirements, Rome, NY

2009-DP-0005   Review of Implementation of Security      06/11/2009 11/17/2009   12/31/2014
               Controls Over HUD's Business Partners

2009-CH-1011   The Housing Authority of the City of      07/31/2009 11/24/2009   01/01/2030
               Terre Haute Failed To Follow Federal
               Requirements and Its Employment
               Contract Regarding Nonprofit
               Development Activities, Terre Haute, IN

2009-KC-0001   HUD Subsidized an Estimated 2,094         08/14/2009 03/31/2011   Note 1
               to 3,046 Households That Included
               Lifetime Registered Sex Offenders

2009-CH-0002   The Office of Affordable Housing          08/28/2009 12/26/2009   Note 1
               Programs’ Oversight of HOME
               Investment Partnerships Program
               Income Was Inadequate

2009-LA-1019   The Owner of Park Lee Apartments          09/15/2009 01/13/2010   Note 2
               Violated Its Regulatory Agreement
               With HUD, Phoenix, AZ

2009-DE-1005   Adams County Did Not Have                 09/17/2009 01/15/2010   Note 1
               Adequate Controls Over Its Block
               Grant Funds, Westminster, CO

2009-AT-0001   HUD Lacked Adequate Controls To           09/28/2009 03/18/2011   Note 3
               Ensure the Timely Commitment
               and Expenditure of HOME funds




                                  Appendix 3 - Tables                                         56
     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                         Decision   Final
     Report number Report title                             Issue date
                                                                         date       action
     2009-AT-1013   The City of Atlanta Entered Incorrect   09/28/2009 11/05/2009   Note 1
                    Commitments Into HUD’s Integrated
                    Disbursement and Information System
                    for its HOME Program, Atlanta, GA

     2010-LA-0001   HUD’s Performance-Based                 11/12/2009 03/12/2010   Note 1
                    Contract Administration Contract
                    Was Not Cost Effective

     2010-FO-0003   Additional Details To Supplement        11/16/2009 04/02/2010   Note 1
                    Our Report on HUD's Fiscal Years
                    2009 and 2008 Financial Statements

     2010-KC-1001   The State of Iowa Misspent CDBG         03/10/2010 09/13/2010   10/31/2012
                    Disaster Assistance Funds and
                    Failed To Check for Duplicate
                    Benefits, Des Moines, IA

     2010-KC-1003   The City of East St. Louis Did Not      03/26/2010 07/22/2010   Note 1
                    Properly Allocate Salary and Building
                    Expenses or Properly Document
                    Its Process To Secure a Consulting
                    Services Contract, East St. Louis, IL

     2010-CH-0001   The Office of Block Grant Assistance    03/29/2010 07/27/2010   Note 1
                    Lacked Adequate Controls Over
                    the Inclusion of Special Conditions
                    in NSP Grant Agreements

     2010-AT-1003   The Housing Authority of                04/28/2010 08/26/2010   11/29/2035
                    Whitesburg Mismanaged Its
                    Operations, Whitesburg, KY

     2010-PH-1008   Sasha Bruce Youthwork,                  05/11/2010 11/03/2010   Note 2
                    Incorporated, Did Not Support
                    More Than $1.9 Million in
                    Expenditures, Washington, DC




57                                      Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                  Decision   Final
Report number Report title                           Issue date
                                                                  date       action
2010-CH-1007   The Michigan State Housing            05/14/2010 09/08/2010   03/01/2016
               Development Authority Needs To
               Improve Its Controls Over Section
               8 Project-Based Housing Assistance
               Payments, Lansing, MI

2010-AT-1006   The Puerto Rico Department of Housing 06/11/2010 10/08/2010   Note 2
               Failed To Properly Manage Its HOME
               Investment Partnerships Program, San
               Juan, PR

2010-CH-1008   The DuPage Housing Authority          06/15/2010 10/08/2010   12/31/2012
               Inappropriately Administered Its
               Section 8 Project-Based Voucher
               Program, Wheaton, IL

2010-FW-1005   The Texas Department of Housing       07/20/2010 11/16/2010   Note 2
               and Community Affairs Did Not
               Fully Follow Requirements or Best
               Practices in the Acquisition of Its
               Disaster Recovery-Funded Program
               Management Firm, Austin, TX

2010-AT-1007   The Housing Authority, City of        07/27/2010 11/24/2010   11/27/2013
               Wilson, Lacked the Capacity To
               Effectively Administer Recovery
               Act Funds, Wilson, NC

2010-LA-1014   The Retreat at Santa Rita Springs     08/02/2010 11/29/2010   Note 2
               Did Not Comply With HUD Rules
               and Regulations and Other Federal
               Requirements, Green Valley, AZ

2010-AT-1011   The Puerto Rico Department of Housing 08/25/2010 12/06/2010   Note 2
               Did Not Ensure Compliance With
               HOME Program Objectives, San Juan,
               PR




                                   Appendix 3 - Tables                                    58
     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                              Decision   Final
     Report number Report title                                  Issue date
                                                                              date       action
     2010-FW-0003   HUD Was Not Tracking Almost                  08/25/2010 12/03/2010   12/31/2012
                    13,000 Defaulted HECM Loans
                    With Maximum Claim Amounts of
                    Potentially More Than $2.5 Billion

     2010-LA-0002   HUD’s Office of Single Family                09/15/2010 01/13/2011   10/01/2012
                    Housing’s Management Controls Over
                    Its Automated Underwriting Process

     2010-KC-1008   The City of East St. Louis Awarded Block 09/28/2010 01/26/2011       Note 2
                    Grant Program Funds to Recipients
                    Without Adequately Verifying Their
                    Eligibility, East St. Louis, IL

     2010-CF-1801   Final Civil Action, Anchor Mortgage          09/30/2010 02/18/2011   02/17/2013
                    Corporation, Loan Origination Fraud
                    - Violations of the False Claims Act,
                    Chicago, IL

     2010-HA-0003   HUD Needs To Improve Controls Over           09/30/2010 01/27/2011   Note 2
                    Its Administration of Completed and
                    Expired Contracts

     2011-DP-0001   HUD Did Not Properly Manage HITS             10/06/2010 02/03/2011   11/30/2012
                    Contracts and Contractors To Fully
                    Comply With Contract Requirements
                    and Acquisition Regulations

     2011-CH-1001   The City of Flint Lacked Adequate            10/13/2010 02/03/2011   04/30/2013
                    Controls Over Its HOME Program
                    Regarding Community Housing
                    Development Organizations’ Home-
                    Buyer Projects, Subrecipients’ Activities,
                    and Reporting Accomplishments
                    in HUD’s System, Flint, MI




59                                       Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                     Decision   Final
Report number Report title                              Issue date
                                                                     date       action
2011-PH-1002   The City of Scranton Did Not             11/08/2010 03/08/2011   Note 2
               Administer Its CDBG Program
               in Accordance With HUD
               Requirements, Scranton, PA

2011-PH-1003   The Pennsylvania Housing Finance        11/08/2010 03/08/2011    Note 2
               Agency Generally Administered Its Tax
               Credit Assistance Program Funded Under
               the Recovery Act in Accordance With
               Applicable Requirements, Harrisburg, PA

2011-NY-1002   The City of Bayonne Did Not Adequately 11/12/2010 03/11/2011     Note 2
               Administer Its Economic Development
               Program, Bayonne, NJ

2011-FO-0003   Additional Details To Supplement Our     11/15/2010 08/08/2011   Note 2
               Report on HUD's Fiscal Years 2010 and
               2009 Financial Statements

2011-NY-1003   The Irvington Housing Authority          11/24/2010 03/23/2011   04/30/2013
               Did Not Administer Its Capital
               Fund Programs in Accordance With
               HUD Regulations, Irvington, NJ

2011-NY-1004   The City of Binghamton Did Not           12/21/2010 04/20/2012   04/19/2013
               Always Administer Its Section 108 Loan
               Program in Accordance With HUD
               Requirements, Binghamton, NY

2011-PH-1005   The District of Columbia Did Not         12/23/2010 04/22/2011   Note 2
               Administer Its HOME Program
               in Accordance With Federal
               Requirements, Washington, DC




                                  Appendix 3 - Tables                                        60
     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                          Decision   Final
     Report number Report title                              Issue date
                                                                          date       action
     2011-CH-1003   The City of Cleveland Lacked Adequate 12/27/2010 04/26/2011      04/19/2013
                    Controls Over Its HOME Investment
                    Partnerships Program and American
                    Dream Downpayment Initiative-Funded
                    Afford-A-Home Program, Cleveland, OH

     2011-AT-1802   The Municipality of Arecibo Charged      01/27/2011 05/26/2011   Note 2
                    the HOME Program With Expenditures
                    That Did Not Meet Program Objectives,
                    Arecibo, PR

     2011-CH-1004   The State of Indiana’s Administrator     01/31/2011 05/25/2011   Note 2
                    Lacked Adequate Controls Over the
                    State’s HOME Investment Partnerships
                    Program and American Dream
                    Downpayment Initiative-Funded First
                    Home/PLUS Program, Indianapolis, IN

     2011-KC-1001   The City of East St. Louis Did Not       02/09/2011 06/09/2011   Note 2
                    Properly Manage Housing Rehabilitation
                    Contracts Funded by the CDBG
                    Program, East St. Louis, IL

     2011-CF-1801   An Underwriting Review of 15             03/02/2011 05/16/2012   Note 2
                    FHA Lenders Demonstrated That
                    HUD Missed Critical Opportunities
                    to Recover Losses to the FHA
                    Insurance Fund, Washington, DC

     2011-PH-1008   The West Virginia Housing Development 03/21/2011 07/19/2011      Note 2
                    Fund Generally Administered Its
                    Tax Credit Assistance Program
                    Funded Under the Recovery Act
                    in Accordance With Applicable
                    Requirements, Charleston, WV




61                                     Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                      Decision   Final
Report number Report title                               Issue date
                                                                      date       action
2011-CH-1006   The DuPage Housing Authority              03/23/2011 07/28/2011   12/31/2012
               Inappropriately Administered
               Its Section 8 Housing Choice
               Voucher Program, Wheaton, IL

2011-KC-1003   The Missouri Housing Development          04/01/2011 07/29/2011   Note 2
               Commission Did Not Always Disburse
               Its Tax Credit Assistance Program Funds
               in Accordance With Recovery Act
               Requirements, Kansas City, MO

2011-FW-1007   Albuquerque Housing Services              04/07/2011 08/03/2011   12/31/2012
               Mismanaged Its Recovery Act Funding,
               Albuquerque, NM

2011-NY-1009   The East Orange Revitalization            04/07/2011 08/03/2011   04/05/2013
               and Development Corporation Did
               Not Always Comply With HOME
               Program Requirements and Federal
               Regulations, East Orange, NJ

2011-AO-1004   The New Orleans Redevelopment             04/08/2011 08/06/2011   Note 2
               Authority Had Not Administered Its
               Recovery Act NSP2 in Accordance With
               Federal Regulations, New Orleans, LA

2011-AT-1006   The Municipality of Mayaguez Did          04/08/2011 08/05/2011   Note 2
               Not Ensure Compliance With HOME
               Program Objectives, Mayaguez, PR

2011-FW-0001   The National Servicing Center             04/08/2011 08/05/2011   Note 2
               Implemented the FHA-HAMP Loss
               Mitigation Option in Accordance
               With Rules and Regulations




                                   Appendix 3 - Tables                                        62
     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                        Decision   Final
     Report number Report title                            Issue date
                                                                        date       action
     2011-NY-1010   The City of Buffalo Did Not Always     04/15/2011 01/25/2012   01/24/2013
                    Administer Its CDBG Program in
                    Accordance With HUD Requirements,
                    Buffalo, NY

     2011-AO-1005   The State of Mississippi Generally     04/18/2011 08/16/2011   Note 2
                    Ensured That Disbursements to
                    Program Participants Were Eligible
                    and Supported, Jackson, MS

     2011-LA-0002   HUD Did Not Always Follow Its          04/18/2011 08/02/2011   12/31/2012
                    Requirements for the Preclosing and
                    Postclosing Review of Mortgage Files
                    Submitted by New Direct Endorsement
                    Lenders

     2011-FW-0002   The Office of Healthcare Programs      04/26/2011 08/17/2011   Note 2
                    Could Increase Its Controls To More
                    Effectively Monitor the Section 232
                    Program

     2011-CH-1008   The State of Michigan Lacked Adequate 06/03/2011 11/30/2011    10/26/2012
                    Controls Over Its NSP Regarding Awards,
                    Obligations, Subgrantees’ Administrative
                    Expenses and Procurement, and
                    Reporting Accomplishments, Lansing,
                    MI

     2011-CH-0002   HUD’s Oversight of Its Multifamily     06/06/2011 11/30/2011   Note 2
                    Housing Subsidy Payment Review
                    Process Needs Improvement

     2011-KC-0001   FHA Has Improved Its Annual Lender     06/14/2011 04/19/2012   Note 2
                    Renewal Process, but Challenges Remain

     2011-FW-1012   The City of Tulsa Mismanaged Its       06/16/2011 10/13/2011   10/07/2012
                    Recovery Act Funding, Tulsa, OK




63                                      Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                     Decision   Final
Report number Report title                              Issue date
                                                                     date       action
2011-AO-0001   The Lafayette Parish Housing           06/22/2011 10/13/2011     10/31/2012
               Authority Violated HUD Procurement
               Requirements and Executed
               Unreasonable and Unnecessary Contracts

2011-AT-1010   Crossfire Financial Network Did Not  06/24/2011 10/11/2011       Note 2
               Follow HUD Requirements in Approving
               FHA Loans and Implementing Its
               Quality Control Program, Miami, FL

2011-FW-1013   The City of Beaumont Should              06/30/2011 10/27/2011   10/05/2012
               Strengthen Its Controls Over Its
               Homelessness Prevention and Rapid
               Re-Housing Program, Beaumont, TX

2011-PH-1012   The City of Reading Generally Complied 06/30/2011 10/13/2011     10/13/2012
               With NSP2 Requirements, Reading, PA

2011-LA-1012   The City of Las Vegas Did Not Always     07/06/2011 10/28/2011   10/27/2012
               Ensure That Homelessness Prevention
               and Rapid Re-Housing Funds Were
               Used as Required, Las Vegas, NV

2011-NY-1802   The City of Dunkirk Used CDBG            07/14/2011 11/10/2011   11/09/2012
               Recovery Act Funding for an Ineligible
               Activity, Dunkirk, NY

2011-LA-1015   Chicanos Por La Causa, Inc., Did Not     07/22/2011 11/09/2011   11/09/2012
               Always Administer Its NSP2 Grant In
               Accordance With HUD Requirements,
               Phoenix, AZ

2011-DP-0008   The Disaster Recovery Grant Reporting    07/28/2011 11/25/2011   11/21/2012
               System That Maintained Recovery Act
               Information Had Application Security
               Control Deficiencies




                                   Appendix 3 - Tables                                       64
     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                           Decision   Final
     Report number Report title                               Issue date
                                                                           date       action
     2011-NY-1011   The Housing Authority of the City of      08/04/2011 11/30/2011   11/29/2012
                    Elizabeth Had Weaknesses in Its Capital
                    Fund Program’s Financial Controls,
                    Elizabeth, NJ

     2011-CH-1012   The Saginaw Housing Commission            08/09/2011 11/10/2011   11/01/2012
                    Did Not Fully Implement Prior Audit
                    Recommendations and Continued To
                    Use Its Public Housing Program Funds
                    for Ineligible Purposes, Saginaw, MI

     2011-PH-1014   The Allegheny County Housing              08/10/2011 12/22/2011   12/22/2012
                    Authority Did Not Always
                    Procure Goods and Services or
                    Obligate Funds According to
                    Recovery Act and Applicable HUD
                    Requirements, Pittsburgh, PA

     2011-AO-1006   The Mississippi Regional Housing          08/16/2011 10/24/2011   10/24/2012
                    Authority VIII Generally Followed
                    Requirements When Obligating and
                    Expending Its Recovery Act Capital
                    Funds but Did Not Accurately Report
                    Recovery Act Grant Information,
                    Gulfport, MS

     2011-CH-1013   The Youngstown Metropolitan Housing       08/16/2011 12/13/2011   10/30/2012
                    Authority Needs To Improve Its
                    Procurement Process, Youngstown, OH

     2011-LA-1016   The City of Compton Did Not        08/18/2011 12/15/2011          11/30/2012
                    Administer Its HOME Program in
                    Compliance With HOME Requirements,
                    Compton, CA




65                                     Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                    Decision   Final
Report number Report title                             Issue date
                                                                    date       action
2011-AO-0002   The Lafayette Parish Housing Authority 08/26/2011 10/13/2011    10/13/2012
               Generally Followed Requirements When
               Obligating and Expending Its Public
               Housing Capital Fund Stimulus Recovery
               Act Funds but Did Not Always Comply
               With Recovery Act Procurement and
               Reporting Requirements

2011-BO-1009   Weymouth Housing Authority Did          08/29/2011 12/22/2011   11/15/2012
               Not Always Administer Its Housing
               Choice Voucher Program and Public
               Housing Program in Accordance With
               HUD Regulations and Its Annual
               Contributions Contracts, Weymouth,
               MA
2011-NY-1015   Weaknesses Existed in Essex County’s    09/20/2011 01/11/2012   10/01/2012
               Administration of Its Homelessness
               Prevention and Rapid Re-Housing
               Program, Essex County, NJ

2011-NY-1016   The City of Buffalo Did Not Always      09/22/2011 01/25/2012   01/24/2013
               Disburse Homelessness Prevention and
               Rapid Re-Housing Program Funds in
               Accordance With Regulations, Buffalo,
               NY

2011-PH-1015   Camden County Generally Administered 09/22/2011 01/12/2012      12/31/2012
               Its CDBG-R Act Funds According to
               Applicable Requirements, Camden, NJ

2011-FW-1016   AmericaHomeKey, Inc., Did Not Follow    09/23/2011 01/20/2012   Note 2
               HUD-FHA Loan Requirements in
               Underwriting 13 of 20 Manufactured
               Home Loans, Dallas, TX




                                  Appendix 3 - Tables                                       66
     Table B
     Significant audit reports for which final action had not been completed
        within 12 months after the date of the Inspector General’s report
                                                                         Decision   Final
     Report number Report title                             Issue date
                                                                         date       action
     2011-SE-1008   The Idaho Housing and Finance           09/23/2011 01/18/2012   01/18/2013
                    Association Did Not Always
                    Comply With HOME Investment
                    Partnerships Project and Cost
                    Eligibility Regulations, Boise, ID

     2011-DE-1005   The State of Montana Generally Used    09/26/2011 01/12/2012    12/11/2012
                    Its CDBG-R Funds in Compliance With
                    Requirements but Improperly Negotiated
                    and Serviced Loans, Helena, MT

     2011-KC-0004   FHA Did Not Prevent Corporate           09/26/2011 06/28/2012   Note 2
                    Officers of Noncompliant Lenders From
                    Returning to the FHA Program

     2011-AT-1018   The Municipality of San Juan Did Not    09/28/2011 01/12/2012   11/30/2012
                    Properly Manage Its HOME Investment
                    Partnerships Program, San Juan, PR

     2011-AT-1019   The Alabama Department of Economic 09/28/2011 01/10/2012        Note 2
                    and Community Affairs Used
                    Homelessness Prevention and Rapid
                    Re-Housing Program Funds for Ineligible
                    and Unsupported Purposes, Montgomery,
                    AL

     2011-AO-1007   Jefferson Parish Housing Authority     09/29/2011 01/26/2012    12/31/2012
                    Did Not Always Comply With Public
                    Housing Capital Fund Stimulus Recovery
                    Act Obligation, Procurement, and
                    Reporting Requirements, Marrero, LA

     2011-CH-1014   The City of Cleveland Lacked Adequate   09/29/2011 01/26/2012   01/05/2013
                    Controls Over Its HOME Investment
                    Partnerships Program-Funded Housing
                    Trust Fund Program Home-Buyer
                    Activities, Cleveland, OH




67                                      Appendix 3 - Tables
Table B
Significant audit reports for which final action had not been completed
   within 12 months after the date of the Inspector General’s report
                                                                     Decision   Final
Report number Report title                              Issue date
                                                                     date       action
2011-CH-0003   The Office of Healthy Homes and Lead     09/30/2011 05/30/2012   Note 2
               Hazard Control Needs To Improve Its
               Monitoring of American Recovery and
               Reinvestment Act Grant Recipients

2011-CH-1015   The Springfield Metropolitan Housing     09/30/2011 01/24/2012   01/24/2013
               Authority Did Not Administer Its Grant
               in Accordance With Recovery Act and
               HUD Requirements, Springfield, OH

2011-CH-1017   Pioneer Civic Services, Inc., Did Not    09/30/2011 02/22/2012   12/31/2012
               Properly Administer Its Supportive
               Housing Program and Housing
               Opportunities for Persons With AIDS
               Grants, Peoria, IL

2011-FO-0006   American Recovery and Reinvestment       09/30/2011 02/15/2012   Note 2
               Act of 2009 Grantees Met Initial
               Expenditure Requirements, but HUD
               Should Return Recaptured Funds to the
               U.S. Treasury and Ensure That Grant
               Closeout Procedures Comply With the
               Act


Table B
     Significant audit reports issued within the past 12 months that
      were described in previous semiannual reports for which final
        action had not been completed as of September 30, 2012
                                                                     Decision   Final
Report number Report title                              Issue date
                                                                     date       action
2012-FW-1001   TXL Mortgage Corporation Did             10/06/2011 02/24/2012   10/06/2012
               Not Comply With HUD-FHA Loan
               Requirements in Underwriting 16 of 20
               Home Loans, Houston, TX




                                   Appendix 3 - Tables                                       68
     Table B
          Significant audit reports issued within the past 12 months that
           were described in previous semiannual reports for which final
             action had not been completed as of September 30, 2012
                                                                               Decision   Final
     Report number Report title                                   Issue date
                                                                               date       action
     2012-NY-1002   The City of New York Charged                  10/18/2011 02/16/2012   02/15/2013
                    Questionable Expenditures to Its HPRP,
                    New York, NY

     2012-NY-1003   The City of Syracuse Did Not Always           10/25/2011 02/22/2012   02/21/2013
                    Administer Its CDBG Program in
                    Accordance With HUD Requirements,
                    Syracuse, NY

     2012-PH-0001   HUD Needed to Improve Its Use                 10/31/2011 02/28/2012   12/31/2012
                    of Its Integrated Disbursement and
                    Information System To Oversee Its
                    CDBG Program

     2012-FO-0001   Audit of Ginnie Mae’s Financial          11/07/2011 03/02/2012        Note 2
                    Statement for Fiscal Years 2011 and 2010

     2012-PH-1002   The National Community Reinvestment           11/14/2011 03/06/2012   03/06/2013
                    Coalition Did Not Comply With
                    Conflict-of-Interest Provisions in Its Fair
                    Housing Initiative Program Agreement
                    With HUD, Washington, DC

     2012-FO-0003   Additional Details To Supplement              11/15/2011 05/10/2012   04/01/2014
                    Our Report on HUD's Fiscal Years
                    2011 and 2010 Financial Statements

     2012-LA-0001   HUD Did Not Adequately Support                11/16/2011 03/27/2012   02/27/2015
                    the Reasonableness of the Fee-
                    for-Service Amounts or Monitor
                    the Amounts Charged

     2012-DE-1002   Trinidad Housing Authority Did Not            11/29/2011 11/30/2011   01/31/2014
                    Always Follow Requirements When
                    Expending and Reporting Information
                    About Its Recovery Act Capital Funds,
                    Trinidad, CO




69                                        Appendix 3 - Tables
Table B
     Significant audit reports issued within the past 12 months that
      were described in previous semiannual reports for which final
        action had not been completed as of September 30, 2012
                                                                     Decision   Final
Report number Report title                              Issue date
                                                                     date       action
2012-LA-1001   Housing Our Communities Did Not          12/08/2011 03/13/2012   03/11/2013
               Administer Its NSP in Accordance
               With HUD Requirements, Mesa, AZ

2012-SE-1002   The Vancouver Housing Authority          12/21/2011 04/13/2012   03/26/2013
               Did Not Always Manage or Report on
               Recovery Act Funds in Accordance
               With Requirements, Vancouver, WA

2012-LA-1003   The City of Modesto Did Not              12/22/2011 04/05/2012   03/06/2013
               Always Comply With NSP2
               Requirements, Modesto, CA

2012-BO-1001   The Housing Authority of the             01/06/2012 05/11/2012   05/01/2013
               City of Hartford did not Properly
               Administer its $2.5 Million Recovery
               Act Grant Construction Management
               Contract., Hartford, CT

2012-AT-1005   The Housing Authority of the City of     01/09/2012 05/02/2012   10/30/2012
               Fort Lauderdale Did Not Fully Comply
               With Federal Requirements When
               Administering Its Public Housing Capital
               Fund Recovery Grants, Fort Lauderdale,
               FL

2012-PH-1004   Luzerne County Generally Administered    01/13/2012 05/10/2012   01/13/2013
               Its CDBG-R Funds According to
               Applicable Requirements, Wilkes-Barre,
               PA

2012-AT-1007   The Shelby County, TN, Housing           01/26/2012 05/25/2012   06/01/2035
               Authority Mismanaged Its HUD-
               Funded Programs, Memphis, TN




                                   Appendix 3 - Tables                                       70
     Table B
          Significant audit reports issued within the past 12 months that
           were described in previous semiannual reports for which final
             action had not been completed as of September 30, 2012
                                                                           Decision   Final
     Report number Report title                               Issue date
                                                                           date       action
     2012-CH-1001   The Gallia Metropolitan Housing           01/26/2012 04/26/2012   04/01/2013
                    Authority Did Not Always Administer Its
                    Grant in Accordance with Recovery Act
                    and HUD Requirements, Bidwell, OH

     2012-CH-1002   The Saginaw Housing Commission Did        01/26/2012 06/04/2012   07/01/2013
                    Not Administer Its Grant in Accordance
                    With Recovery Act, HUD’s, and Its
                    Requirements, Saginaw, MI

     2012-LA-1004   MetLife Bank’s Scottsdale, AZ, Branch     01/26/2012 05/18/2012   01/26/2013
                    Office Did Not Follow FHA-Insured
                    Loan Underwriting and Quality Control
                    Requirements

     2012-FO-0004   Information System Deficiencies Noted     01/27/2012 05/21/2012   03/30/2013
                    During FHA's Fiscal Year 2011 Financial
                    Statement Audit

     2012-NY-1005   The City of Newark Had Weaknesses in      01/27/2012 04/26/2012   01/25/2013
                    the Administration of Its HPRP, Newark,
                    NJ

     2012-NY-1006   MLD Mortgage, Inc., Did Not Always        02/06/2012 05/18/2012   02/06/2013
                    Comply With HUD-FHA Loan
                    Origination and Quality Control
                    Requirements, Florham Park, NJ

     2012-PH-0004   HUD Controls Did Not Always Ensure   02/09/2012 06/08/2012        02/01/2013
                    That Home Equity Conversion Mortgage
                    Loan Borrowers Complied With
                    Program Residency Requirements




71                                      Appendix 3 - Tables
Table B
     Significant audit reports issued within the past 12 months that
      were described in previous semiannual reports for which final
        action had not been completed as of September 30, 2012
                                                                     Decision   Final
Report number Report title                              Issue date
                                                                     date       action
2012-DP-0001   Audit Report on the Fiscal Year 2011     02/14/2012 07/02/2012   09/30/2013
               Review of Information Systems Controls
               in Support of the Financial Statements
               Audit

2012-NY-1007   The City of Syracuse Did Not Always      02/21/2012 06/12/2012   11/30/2012
               Administer Its Economic Development
               Initiative Program in Accordance With
               HUD Requirements, Syracuse, NY

2012-AO-1001   Opelousas Housing Authority Did Not      02/23/2012 05/10/2012   05/10/2013
               Always Comply With Recovery Act and
               Federal Obligation, Procurement, and
               Reporting Requirements, Opelousas, LA

2012-CH-1003   The Springfield Housing                  02/23/2012 06/04/2012   05/11/2013
               Authority Needs To Improve Its
               ARRA Contract Administration
               Procedures, Springfield, IL

2012-CH-1004   The State of Indiana’s Administrator     02/24/2012 06/22/2012   01/31/2013
               Lacked Adequate Controls Over the
               State’s HOME Investment Partnerships
               Program Regarding CHDOs’ Activities
               and Income, Indianapolis, IN

2012-KC-1002   The East St. Louis Housing Authority     03/02/2012 06/29/2012   05/31/2013
               Did Not Properly Manage or Report on
               Recovery Act Capital Funds, East St.
               Louis, IL

2012-FW-1005   The State of Texas Did Not Follow        03/07/2012 07/05/2012   03/07/2013
               Requirements for Its Infrastructure
               and Revitalization Contracts Funded
               With CDBG Disaster Recovery
               Program Funds, Austin, TX




                                  Appendix 3 - Tables                                        72
     Table B
          Significant audit reports issued within the past 12 months that
           were described in previous semiannual reports for which final
             action had not been completed as of September 30, 2012
                                                                         Decision     Final
     Report number Report title                             Issue date
                                                                         date         action
     2012-FW-1802   Bank of America Corporation,            03/12/2012 07/09/2012     06/28/2013
                    Foreclosure and Claims Process
                    Review, Charlotte, NC

     2012-LA-1005   The City of Los Angeles Did Not Expend 03/13/2012 09/19/2012      03/13/2014
                    Brownfields Economic Development
                    Initiative and Section 108 Funds for
                    the Goodyear Industrial Tract Project in
                    Accordance With HUD Requirements,
                    Los Angeles, CA

     2012-BO-1002   The Housing Authority of the City of      03/14/2012 08/27/2012   12/31/2013
                    Stamford Did Not Properly Administer
                    and Oversee the Operations of Its Federal
                    Programs, Stamford, CT

     2012-PH-1006   Gloucester Township Did Not             03/14/2012 05/30/2012     05/30/2013
                    Always Administer Its CDBG-R
                    Act Funds According to Applicable
                    Requirements, Blackwood, NJ

     2012-PH-1008   Mountain CAP of WV, Inc., Did Not       03/15/2012 07/12/2012     10/31/2012
                    Administer Its HPRP in Accordance
                    With Applicable Recovery Act and HUD
                    Requirements, Buckhannon, WV

     2012-BO-1003   The Medford Housing Authority Needs     03/21/2012 08/06/2012     12/31/2012
                    to Improve Rent Reasonableness
                    Determinations, Procurement, and
                    Enforcement of Housing Quality
                    Standards, Medford, MA

     2012-CH-1006   Cuyahoga Metropolitan Housing           03/29/2012 07/18/2012     03/01/2013
                    Authority Did Not Operate Its
                    Section 8 Housing Choice Voucher
                    Program According to HUD’s
                    Requirements, Cleveland, OH




73                                      Appendix 3 - Tables
Table B
       Significant audit reports issued within the past 12 months that
        were described in previous semiannual reports for which final
          action had not been completed as of September 30, 2012
                                                                             Decision       Final
Report number Report title                                     Issue date
                                                                             date           action
2012-CH-1007      The State of Michigan Lacked Adequate        03/30/2012 07/26/2012        12/28/2012
                  Controls Over Its Use of NSP Funds
                  Under the HERA for a Project, Lansing,
                  MI
Audits Excluded:
85 audits under repayment plans
38 audits under debt claims collection processing, formal judicial review, investigation, or legislative
solution

Notes:
1 Management did not meet the target date. Target date is over 1 year old.
2 Management did not meet the target date. Target date is under 1 year old.
3 No management decision




                                        Appendix 3 - Tables                                                74
     Table C
                         Inspector General-issued reports with
               questioned and unsupported costs as of September 30, 2012
                                                                   *(thousands)

                                                                               Number of              Questioned              Unsupported
                              Audit reports                                                                                      costs
                                                                              audit reports             costs
     A1    For which no management decision                                          39                  $81,516                 $68,207
           had been made by the commencement
           of the reporting period

     A2    For which litigation, legislation, or                                      3                   $6,619                  $3,305
           investigation was pending at the
           commencement of the reporting period

     A3    For which additional costs were added                                      -                    $339                    $160
           to reports in beginning inventory

     A4    For which costs were added to noncost reports                              1                     $20                     $20


     B1    Which were issued during                                                  54                $1,201,555                $64,440
           the reporting period
     B2    Which were reopened during                                                 0                      0                       0
           the reporting period

                                                 Subtotals (A + B)                   97                $1,290,049               $136,132

     C     For which a management decision was                                      531                  $85,240                 $66,990
           made during the reporting period

           (1) Dollar value of disallowed costs:                                    282                  $16,098                 $10,916
           	       Due HUD                                                          35                   $49,241                 $37,672
           	       Due program participants

           (2) Dollar value of costs not disallowed                                  93                  $19,901                 $18,402
     D     For which a management decision had been                                   5                   $8,960                  $5,299
           made not to determine costs until completion
           of litigation, legislation, or investigation

     E     For which no management decision had made                               39                $1,195,849                $63,843
           by the end of the reporting period                                    <102>4             <$1,184,214>4             <$52,209>4

     1
          22 audit reports also contain recommendations that funds be put to better use.
     2
          10 audit reports also contain recommendations with funds due program participants.
     3
          9 audit reports also contain recommendations with funds agreed to by management.
     4
          The figures in brackets represent data at the recommendation level as compared to the report level.  See Explanations of Tables C and
     D.




75                                                       Appendix 3 - Tables
Table D
           Inspector General-issued reports with recommendations that
               funds be put to better use as of September 30, 2012
                                                         *(thousands)

                                                                                        Number of
                                  Audit reports                                                             Dollar value
                                                                                       audit reports

    A1   For which no management decision had been made                                      20              $2,523,872
         by the commencement of the reporting period

    A2   For which litigation, legislation, or investigation was pending                      2                $15,521
         at the commencement of the reporting period

    A3   For which additional costs were added to                                             -                 $2,332
         reports in beginning inventory

    A4   For which costs were added to noncost reports                                        0                   $0

    B1   Which were issued during the reporting period                                       32               $824,799

    B2   Which were reopened during the reporting period                                      0                   $0

                                                             Subtotals (A + B)               54              $3,366,524

    C    For which a management decision was                                                 291             $2,465,184
         made during the reporting period

         (1) Dollar value of recommendations that                                            12              $2,272,763
         were agreed to by management:                                                       16               $88,155
         	       Due HUD
         	       Due program participants

         (2) Dollar value of recommendations that                                            42               $104,266
         were not agreed to by management

    D    For which a management decision had been                                             4                $17,375
         made not to determine costs until completion
         of litigation, legislation, or investigation

    E    For which no management decision had made                                         21                $883,965
         by the end of the reporting period                                               <29>3             <$821,764>3


1
    22 audit reports also contain recommendations with questioned costs.
2
    3 audit reports also contain recommendations with funds agreed to by management.
3
    The figures in brackets represent data at the recommendation level as compared to the report level.  See Explanations of
    Tables C and D.




                                                 Appendix 3 - Tables                                                           76
     Explanations of Tables C and D
     The Inspector General Act Amendments of 1988 require inspectors general and agency heads
     to report cost data on management decisions and final actions on audit reports. The current
     method of reporting at the “report” level rather than at the individual audit “recommendation”
     level results in misleading reporting of cost data. Under the Act, an audit “report” does not have
     a management decision or final action until all questioned cost items or other recommendations
     have a management decision or final action. Under these circumstances, the use of the “report”
     based rather than the “recommendation” based method of reporting distorts the actual agency
     efforts to resolve and complete action on audit recommendations. For example, certain cost
     items or recommendations could have a management decision and repayment (final action) in
     a short period of time. Other cost items or nonmonetary recommendation issues in the same
     audit report may be more complex, requiring a longer period of time for management’s decision
     or final action. Although management may have taken timely action on all but one of many
     recommendations in an audit report, the current “all or nothing” reporting format does not
     recognize their efforts.

     The closing inventory for items with no management decision in tables C and D (line E) reflects
     figures at the report level as well as the recommendation level.




77                                         Appendix 3 - Tables
Appendix 3 - Tables   78
                                                      Appendix 4
5-Year Recap: HUD OIG’s Impact on the FHA Insurance Program FY 2008-2012




                                                  Financial health of the insurance fund issue
          By the numbers
           production:                       Robosigning audits                                 National City Mortgage
             1,065                            - $900 million settlement for FHA                 - $4.6 million settlement
           external FHA                      and $24.1 billion for other agencies
               audits
               32                            DHI Mortgage Company                               RBC Mortgage Company
           internal FHA                      - $38 million indemnification                      - $10.9 million civil settlement
               audits
              542                            Somerset Investor Corp.                            Worldwide Financial Services
              mgt.
         recommendations                     - $2.8 million indemnification                     - $3.4 million false claims judgment

             1,203                           DHI Mortgage Company                               Marathon Mortgage
              fraud
           convictions                       - $2.5 million indemnification                     - $21.4 million restitution

                                             Washington Mutual Home                             Mortgage One Corporation
                                             Loans - $364,000 settlement                        - $29.7 million restitution




                                                      HUD oversight and enforcement issues
                                             Controls over FHA appraiser                        Partial claim process
                                             rosters inadequate

                                             HUD’s Quality Assurance Division                   HUD’s REO contractor


                                             Short sales review advised HUD of                  Reverse mortgage program
                                             weakness in program guidelines
           Management
             results:                        FHA appraiser review process                       HUD’s Quality Control Division

             1,071
          administrative                     FHA loans in flood plains                          Review of M&M contractors
             actions

         $890 million
           funds put to                      HUD needs to use system edits to                   Senate Committee on Appropriations
            better use                       identify HECM applicants who are
          $1.5 billion                       not occupying the unit as required.
            recoveries                                                                          House of Representatives
                                                                                                Committee on Financial Services
         $353 million
            questioned
            audit costs


                                                                                   Inspection and
                 Civil Fraud             Settlement              Audit                                     Testimony          Investigation
                                                                                   Evaluation



                           *HECM-home equity conversion mortgage *REO - real estate owned  *M&M - management and marketing




  79 Appendix 4 - 5-Year Recap: HUD OIG’s Impact on the FHA Insurance Program FY 2008-2012
                           Risk management issues
       FHA internal controls                              FHA lender renewal process should               By the numbers
                                                                                                           production:
       need to be risk based                              issue violation notices promptly
                                                                                                               106
                                                                                                           external FHA
                                                                                                               audits
       FHA’s lender approval process                      Operation Watchdog $945,000
       should restrict principals                         settlement; recommended                               32
                                                                                                           internal FHA
       who commit fraud                                   use of statistical sampling                          audits
                                                          to do claims review
                                                                                                               542
                                                                                                               mgt.
       Mortgagee Review Board                             Preclosing and postclosing loan                 recommendations
       inadequacy of enforcement actions                  reviews of new FHA lenders;                         1,203
                                                          needed improved controls                             fraud
                                                                                                            convictions

       HUD’s automated underwriting                       Senate Committe on Banking and
       process needs risk policies                        Urban Affairs regarding risked-based
                                                          premiums and zero downpayments



                             Mortgage fraud issues

       Six defendants in a HECM                           Owner of realty group falsified
       short sales fraud                                  FHA application data
       -48 months incarceration,                          -63 months incarceration,
       5 years supervised release,                        5 years supervised release
       $9.2 million restitution

       Financial group owner runs                         RBC mortgage processors
       distressed homeowner scheme                        - $1.1 million restitution; false                Management
       -27 months incarceration, 5 years                  documents for unqualified buyers                   results:
       supervised release, $545,000 restitution
                                                                                                              1,071
       Countrywide Homes                                  First City Abstract                              administrative
                                                          - $4.6 million restitution                          actions
       - $740,000 indemnification
                                                          property flipping                               $890 million
                                                                                                            funds put to
       V.P. Encore Mortgage et al                         Beazer Homes                                       better use
       - 12.5 years incarceration,                        - $5 million restitution, $50
       $5.1 million restitution                           million fund for victims                        $1.5 billion
                                                                                                             recoveries
       Anchor Mortgage Corporation                        Great Stone Mortgage - 8+ years                 $353 million
       - $2.9 million false claims judgment               incarceration, $77.9 million restitution          questioned
                                                                                                            audit costs




                                                                    Inspection and
     Civil Fraud         Settlement               Audit                                       Testimony       Investigation
                                                                    Evaluation




Appendix 4 - 5-Year Recap: HUD OIG’s Impact on the FHA Insurance Program FY 2008-2012 80
                                 OIG
                          Telephone Directory


     Office of Audit
     Headquarters Office of Audit, Washington, DC					   202-708-0364

     Region 1/2			Boston, MA						 617-994-8380
     				Hartford, CT						860-240-4800
     				Manchester, NH					603-666-7988
     				New York, NY						212-264-8062
     				Buffalo, NY						716-551-5755
     				Newark, NJ						973-776-7355

     Region 3			Philadelphia, PA					215-430-6758
     				Baltimore, MD						410-209-6533
     				Pittsburgh, PA						412-644-6598
     				Richmond, VA						804-822-4890
     				Washington, DC					202-314-5451

     Region 4			Atlanta, GA						404-331-5001
     				Birmingham, AL					205-745-4314
     				Columbia, SC						803-451-4318
     				Greensboro, NC					336-547-4000
     				Hattiesburg, MS					601-434-5848
     				Jackson, MS						601-965-4700
     				Memphis, TN						901-969-0344
     				Miami, FL						305-536-3087
     				Nashville, TN						615-736-2332
     				San Juan, PR						787-766-5868
     				Tampa, FL						813-228-2026

     Region 5			Chicago, IL						312-353-4196
     				Cleveland, OH						216-357-7800
     				Columbus, OH						614-469-6677
     				Detroit, MI						313-226-6280
     				Grand Rapids, MI					616-309-2845
     				Indianapolis, IN					317-226-5427
     				Minneapolis-St. Paul, MN				612-370-3130

     Region 6			Fort Worth, TX						817-978-5440
     				Baton Rouge, LA					225-448-3941
     				Houston, TX						713-718-3221
     				Little Rock, AR						501-324-5931
     				Albuquerque, NM					505-346-7270
     				New Orleans, LA					504-671-3700
     				Oklahoma City, OK					405-609-8603
     				San Antonio, TX					210-475-6819




81                        OIG - Telephone Directory
Region 7			Kansas City, KS						913-551-5866
				St. Louis, MO						314-539-6559

				Denver, CO						303-672-5350
				Billings, MT						406-247-4080
				Salt Lake City, UT					801-524-6090
				Seattle, WA						206-220-5380

Region 9			Los Angeles, CA					213-894-0219
				Las Vegas, NV						702-413-0531
				Phoenix, AZ						602-379-7252
				Sacramento, CA					916-930-5691
				San Francisco, CA					415-489-6683


Office of Investigation
Headquarters Office of Investigation, Washington, DC					   202-708-0390

Region 1/2			Boston, MA						617-994-8450
				Hartford, CT						860-240-4800
				Manchester, NH					603-666-7988
				New York, NY						212-264-8062
				Buffalo, NY						716-551-5755
				Newark, NJ						973-776-7355

Region 3			Philadelphia, PA					215-430-6758
				Baltimore, MD						410-209-6533
				Pittsburgh, PA						412-644-6598
				Richmond, VA						804-822-4890
				Washington, DC					202-314-5451

Region 4			Atlanta, GA						404-331-5001
				Birmingham, AL					205-745-4314
				Columbia, SC						803-451-4318
				Greensboro, NC					336-547-4000
				Hattiesburg, MS					601-434-5848
				Jackson, MS						601-965-4700
				Memphis, TN						901-969-0344
				Miami, FL						305-536-3087
				Nashville, TN						615-736-2332
				San Juan, PR						787-766-5868
				Tampa, FL						813-228-2026

Region 5			Chicago, IL						312-353-4196
				Cleveland, OH						216-357-7800
				Columbus, OH						614-469-6677
				Detroit, MI						313-226-6280




                         OIG - Telephone Directory                         82
     				Grand Rapids, MI					616-309-2845
     				Indianapolis, IN					317-226-5427
     				Minneapolis-St. Paul, MN				612-370-3130

     Region 6			Fort Worth, TX						817-978-5440
     				Baton Rouge, LA					225-448-3941
     				Houston, TX						713-718-3221
     				Little Rock, AR						501-324-5931
     				New Orleans, LA					504-671-3700
     				Oklahoma City, OK					405-609-8603
     				San Antonio, TX					210-475-6819

     Region 7			Kansas City, KS						913-551-5866
     				St. Louis, MO						314-539-6559

     Region 8/10			Denver, CO						303-672-5350
     				Billings, MT						406-247-4080
     				Salt Lake City, UT					801-524-6090
     				Seattle, WA						206-220-5380

     Region 9			Los Angeles, CA					213-894-0219
     				Las Vegas, NV						702-413-0531
     				Phoenix, AZ						602-379-7252
     				Sacramento, CA					916-930-5691
     				San Francisco, CA					415-489-6683




83                  OIG - Telephone Directory
 Report fraud, waste, and mismanagement in HUD
            programs and operations by

     Calling the OIG hotline: 1-800-347-3735
   Monday through Friday, 10:00 a.m. – 6:00 p.m.,
              Eastern Standard Time

       Faxing the OIG hotline: 202-708-4829

           Sending written information to
U.S. Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                451 7th Street, SW
              Washington, DC 20410


 Internet: http://www.hudoig.gov/hotline/index.php

          All information is confidential,
         and you may remain anonymous.




                OIG - Telephone Directory            84
                                                 n t
                                           m   e
                                       l e
                                e   tt
                            c S
                      r i
             i s   to
           H



                             Semiannual Report to Congress
                               www.hud.gov/offices/oig
                                        No. 68


       April 1, 2012, Through September 30, 2012

     U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT
85                   OIG - Telephone Directory
